No. 20In the

Supreme Court of the United States

SPENCER SAVINGS BANK, SLA, JOSE B.
GUERRERO, PETER J. HAYES, NICHOLAS LORUSSO,
BARRY MINKIN, JOHN STURGES, ANTHONY S.
CICATIELLO, AND ALBERT D. CHAMBERLAIN,
Petitioners,
v.
LAWRENCE B. SEIDMAN,
Respondent.

On Petition for a Writ of Certiorari to the
Superior Court of New Jersey, A ppellate Division

PETITION FOR A WRIT OF CERTIORARI

Helen Davis Chaitman
Counsel of Record
Lance Gotthoffer
Chaitman LLP
465 Park Avenue
New York, New York 10022
(888) 759-1114
hchaitman@chaitmanllp.com
Attorneys for Petitioners
296897

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
A recent decision from a New Jersey appellate court
(which the New Jersey Supreme Court declined to review)
joins a growing number of decisions across the country that
are eroding the specific protections afforded to financial
institutions under the Bank Secrecy Act of 1970 (“BSA”).
If not curtailed, this trend will have a chilling effect on the
willingness of financial institutions to report suspicious activity
to federal regulators. Since 1996, to help prevent financial
crimes, banks have been required to file a Suspicious Activity
Report (“SAR”) whenever they identify any suspicious activity
of a bank customer. See 31 U.S.C. § 5318. However, banks are
absolutely forbidden to reveal to anyone that such a report has
been filed, even in civil litigation.
Congress recognized that banks have legitimate
concerns about being held liable for a breach of customer
privacy attributable to these reports. Accordingly, the
BSA includes a safe harbor provision protecting a bank
from civil liability for revealing suspicious account activity
to governmental authorities.
That federal protection is being eviscerated by
decisions like the one in this case, which held the bank
liable for closing a customer account unless it could
demonstrate a good faith basis for the closure. That
requirement places banks in a Hobson’s choice of violating
their non-disclosure obligations under the BSA or facing
civil liability for being unable to disclose the good faith
basis for an account closure.
This case presents the question whether, since a bank
is prohibited from disclosing whether or not it filed a SAR,

ii
a state court’s imposition of a good faith requirement for
termination of a customer account is repugnant to the
statutory scheme embodied in the BSA?

iii
PARTIES TO THE PROCEEDING
Petitioner Spencer Savings Bank, S.L.A. is a New
Jersey mutual savings and loan association governed by
the New Jersey Savings & Loan Act, N.J.S.A. §§ 17:12B-1
to 319. Jose B. Guerrero, Peter J. Hayes, Nicholas Lorusso,
Barry Minkin, John Sturges, Anthony S. Cicatiello and
Albert D. Chamberlain are the members of its Board of
Directors (collectively, “Spencer”). These parties were
the Defendants-Appellants below.
Respondent Law rence B. Seidman was the
Plaintiff-Appellee below.

iv
CORPORATE DISCLOSURE STATEMENT
Pursuant to Fed R. App. P. 29.6, Spencer states
that (1) it has no parent corporation and (2) no publicly
held company holds 10% or more of its stock.

v
RELATED PROCEEDINGS
The following proceedings are directly related to the
case in this Court:
Lawrence Seidman v. Spencer Savings Bank, et al.,
Case No. PAS-C-53-15, Superior Court of New Jersey,
Opinion dated October 19, 2017;
Lawrence B. Seidman v. Spencer Savings Bank,
SLA, Jose B. Guerrero, Peter J. Hayes, Nicholas Lorusso,
Barry Minkin, John Sturges, Anthony S. Cicatiello, and
Albert D. Chamberlain, Case Nos. A-2039-17T3, A-473917T4, Superior Court of New Jersey, Appellate Division,
Opinion dated October 3, 2019;
Lawrence B. Seidman v. Spencer Savings Bank,
SLA, Jose B. Guerrero, Peter J. Hayes, Nicholas Lorusso,
Barry Minkin, John Sturges, Anthony S. Cicatiello, and
Albert D. Chamberlain, Case No. C-637, Supreme Court
of New Jersey, Order dated March 10, 2020.

vi
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . .  iii
CORPORATE DISCLOSURE STATEMENT . . . . . . . iv
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . . . v
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . .  viii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  ix
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS AND
REGULATIONS INVOKED . . . . . . . . . . . . . . . . . . . 2
Federal Statutes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Federal Regulations  . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
New Jersey Statutes . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 7

vii
Table of Contents
Page
A. Factual Background and Decisions Below . . . . . 7
REASONS FOR GRANTING THE PETITION . . . . 10
I.

THE DECISIONS BELOW
CONTRAVENE FEDERAL LAW AND
POLICY ON AN ISSUE OF NATIONAL
IMPORTANCE  . . . . . . . . . . . . . . . . . . . . . . . . . . 10

II. THE SAFE HARBOR PROVISION
SHOULD BE HELD TO APPLY TO
CLAIMS OF WRONGFUL
TERMINATION . . . . . . . . . . . . . . . . . . . . . . . . . 14
III. THE NEW JERSEY COURT’S
DECISION VIOLATES THE
PREEMPTION DOCTRINE. . . . . . . . . . . . . . . 18
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

viii
TABLE OF APPENDICES
Page
APPENDIX A — DENIAL OF DISCRETIONARY
REVIEW OF THE SUPREME COURT OF
NEW JERSEY, FILED MARCH 13, 2020 . . . . . . . 1a
APPENDIX B — OPINION OF THE SUPERIOR
COURT OF NEW JERSEY, APPELLATE
DIVISION, FILED OCTOBER 3, 2019 . . . . . . . . . . 3a
A P PEN DI X C — DECI SION OF T H E
SUPERIOR COURT OF NEW JERSEY,
FILED DECEMBER 11, 2017 . . . . . . . . . . . . . . . . . 40a
A ppendix D — opinion of the
SUPERIOR COURT OF NEW JERSEY,
DATED OCTOBER 19, 2017  . . . . . . . . . . . . . . . . . . 44a

ix
TABLE OF CITED AUTHORITIES
Page
Cases
AER Advisors, Inc. v.
Fidelity Brokerage Services, LLC,
921 F.3d 282 (1st Cir. 2019), cert denied,
_U.S._ (2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  11, 17
Ambruster v. Nat’l Bank of Westfield,
116 N.J.L. 122 (N.J. E & A 1936)  . . . . . . . . . . . . . . . . 8
Bank of Eureka Springs v. Evans,
109 S.W.3d 672 (Ark. 2003) . . . . . . . . . . . . . . . . . . 10, 13
Bates v. Dow Agrosciences, LLC,
544 U.S. 431 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
California v. ARC America Corp.,
490 U.S. 93 (1981)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Charleston v. Western Carolina R. Co. v.
Varnville Furniture Co.,
237 U.S. 597 (1915) . . . . . . . . . . . . . . . . . . . . . . . . . 18-19
Cotton v PrivateBank & Trust Co.,
235 F.Supp.2d 809 (N.D. Ill. 2010) . . . . . . . . . . . .12, 14
Doughty v. Cummings,
28 So. 3d 580 (La. Ct. App. 2009) . . . . . . . . . . 10-11, 13
Florida Lime & Avocado Growers, Inc. v. Paul,
373 U.S. 132 (1963)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

x
Cited Authorities
Page
Hines v. Davidowitz,
312 U.S. 52 (1941)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Joseph v. Bancorpsouth Bank,
414 F. Supp. 2d 609 (S.D. Miss. 2005) . . . . . . . . . . . . 16
Lee v. Bankers Tr. Co.,
166 F.3d 540 (2d Cir. 1999) . . . . . . . . . . . . . . .  11, 13, 17
Lopez v. First Union National Bank of Florida,
129 F.3d 1186 (11th Cir. 1997) . . . . . . . . . . . . . . . . . . 11
Norton v. U.S. Bank N.A.,
324 P.3d 693 (Wash. Ct. App. 2014) . . . . . . . . . . . 12, 13
Rachuy v. Anchor Bank,
No. A09299, 2009 WL 3426939 (Minn. Ct. App.
Oct. 27, 2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Ricci v. Key Bancshares, Inc.
662 F. Supp. 1132 (D. Me. 1987) . . . . . . . . . . . . . . . . . 15
Stoutt v. Banco Popular de Puerto Rico,
320 F.3d 26 (1st Cir. 2003) . . . . . . . . . . . . . . .  11, 15, 17
Union Bank of California N.A. v.
Superior Court,
29 Cal. Rptr. 3d 894 (Cal. Ct. App. 2005) . . . 12, 13, 14
United States v. Arizona,
567 U.S. 387 (2012)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

xi
Cited Authorities
Page
Wyeth v. Levine,
555 U.S. 555 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Constitutional Provisions and Statutes
18 U.S.C. § 981  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
18 U.S.C. § 982  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
18 U.S.C. § 1957  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
28 U.S.C. § 1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
31 U.S.C. § 5318  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
31 U.S.C. § 5318(g)(3) . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 10
31 U.S.C. § 5318(g)(3)(A) . . . . . . . . . . . . . . . . . . . . . . . . 2, 3
Bank Secrecy Act of 1970  . . . . . . . . . . . . . . . . . . . . passim
N.J.S.A. § 2C:41-1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
N.J.S.A. § 17:12B-112 . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 7
N.J.S.A. § 17:12B-144 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
N.J.S.A. § 112 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
N.J.S.A. § 144 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

xii
Cited Authorities
Page
U.S. Const. Art. VI, Cl. 2 . . . . . . . . . . . . . . . . . . . . . . . . . 18
Rules
Sup. Ct. R. 13  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Miscellaneous
12 C.F.R. § 21.11 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
12 C.F.R. § 21.11(k)(ii)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
12 C.F.R. § 163.180(d) . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 4
12 C.F.R. § 163.180(d)(12)  . . . . . . . . . . . . . . . . . . . . . . 5, 12
12 C.F.R. § 163.180(d)(12)(ii) . . . . . . . . . . . . . . . . . . . . . . . 6
12 C.F.R. § 163.180(d)(12)(iii)  . . . . . . . . . . . . . . . . . . . . . . 6
31 C.F.R. § 1020.320 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
31 C.F.R. § 1023.320(a)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . 3
137 Cong. Rec. S16,640-01 (daily ed. Nov. 13, 1991) . . .  17
139 Cong. Rec. E57 (daily ed., Jan. 5, 1993)  . . . . . .  15, 16
75 Fed. Reg. at 75,579 n.23 . . . . . . . . . . . . . . . . . . . . . . . 12

xiii
Cited Authorities
Page
Matthew R . Ha l l, A n Emerg i ng Duty t o
Report Criminal Conduct: Banks, Money
Laundering, and the Suspicious Activity Report,
84 Ky L.J., Article 8 (1996)  . . . . . . . . . . . .  3, 11, 15, 16
Whitney Adams, Effective Strategies for Banks
in Avoiding Criminal, Civil, and Forfeiture
Liabi l ity in Money Launder ing Cases,
44 Ala. L. Rev. 669 (1993) . . . . . . . . . . . . . . . .  11, 14, 18

1
PETITION FOR A WRIT OF CERTIORARI
Defendants-Appellants respectfully petition for a writ
of certiorari to review the judgment of the New Jersey
Supreme Court in this case.
OPINIONS BELOW
The opinion of the Supreme Court of New Jersey
denying discretionary certification filed March 13, 2020
is reported at 226 A.3d 500 (2020) and reprinted in the
Appendix (“App”) at 1a-2a.
The opinion of the Appellate Division of the Superior
Court of New Jersey dated October 3, 2019 (App. 3a-39a)
was unreported. It is available at 2019 WL 4891167 (N.J.
App. Oct. 3, 2019).
The opinion of the Superior Court of New Jersey dated
December 11, 2017 (App. 40a-43a) is unreported.
The opinion of the Superior Court of New Jersey dated
October 19, 2017 (App. 44a-66a) is unreported.
JURISDICTION
The jurisdiction of this Court is based on 28 U.S.C.
§ 1257(a) which provides for jurisdiction where, inter alia,
“… any title, right, privilege, or immunity is specially set
up or claimed under the Constitution or the treaties or
statutes of, or any commission held or authority exercised
under, the United States.” Specifically, the decisions below
violate rights and immunities provided by the BSA, a statute
of the United States. The New Jersey Supreme Court’s

2
decision was entered on March 13, 2020. [App. 1a-2a].
This Petition is timely filed pursuant to Rule 13 of the
Rules of the United States Supreme Court, as modified
by the order of this Court dated March 19, 2020, which
extended the filing date by 60 days.
STATUTORY PROVISIONS
AND REGULATIONS INVOKED
Federal Statutes
This case concerns the BSA, codified in Titles 12 and
31 of the United States Code, which authorizes regulations
requiring financial institutions to maintain certain records
and to report certain types of transactions. In 1996, the
United States Treasury issued a rule requiring a wide
range of financial institutions to file SARs reporting a
possible violation of law or regulation. See, e.g. 31 C.F.R.
§ 1020.320 (applicable to banks).
Section 1517(b) of the Annunzio-Wylie Act, 106 stat.
4059-60 (1992), codified as amended at 31 U.S.C. § 5318(g)
(3)(A), the “Safe Harbor” provision, grants immunity
from private lawsuits to financial institutions in three
circumstances: (1) when the institution makes a “voluntary
disclosure” of possible violations of law to government
officials, (2) when the institution makes a disclosure
“pursuant to” the Act, and (3) when the institution makes
a disclosure pursuant to “any other authority.” 31 U.S.C.
§ 5318(g)(3)(A). It provides:
[a]ny financial institution that makes a voluntary
disclosure of any possible violation of law or
regulation to a government agency or makes
a disclosure pursuant to this subsection or

3
any other authority, and any director, officer,
employee, or agent of such institution who
makes, or requires another to make any such
disclosure, shall not be liable to any person under
any law or regulation of the United States, any
constitution, law, or regulation of any State or
political subdivision of any State, or under any
contract or other legally enforceable agreement
(including any arbitration agreement), for such
disclosure or for any failure to provide notice of
such disclosure to the person who is the subject
of such disclosure or any other person identified
in the disclosure.
31 U.S.C. § 5318(g)(3)(A)
Federal Regulations
Regulations have been put into place, requiring
inter alia that a SAR be filed under certain specified
circumstances by various entities, among them financial
institutions. See, e.g. 31 C.F.R. § 1023.320(a)(1) applicable
to broker-dealers, 12 C.F.R. § 21.11 applicable to national
banks and branches of foreign banks, and 12 C.F.R.
§ 163.180(d) applicable to savings associations and service
corporations. Because these provisions are substantially
identical and Spencer is a savings and loan association, we
quote 12 C.F.R. § 163.180(d) in relevant part:
(d) Suspicious Activity Reports –
(1) Purpose and scope. This paragraph (d)
ensures that savings associations and service
corporations file a Suspicious Activity Report
when they detect a known or suspected violation

4
of Federal law or a suspicious transaction
related to a money laundering activity or a
violation of the Bank Secrecy Act.
***
(3) SARs required. A savings association or
service corporation shall file a SAR with the
appropriate Federal law enforcement agencies
and the Department of the Treasury on the
form prescribed by the appropriate Federal
banking agency and in accordance with the
form’s instructions, by sending a completed
SAR to FinCEN in the following circumstances:
(i) Insider abuse involving any amount. . . .
***
(ii) Violations aggregating $5,000 or more
where a suspect can be identified. . . .
***
(iii) Violations aggregating $25,000 or more
regardless of potential suspects. . . .
***
(iv) Transactions aggregating $5,000 or more
that involve potential money laundering or
violations of the Bank Secrecy Act. . . .
12 C.F.R. § 163.180(d)

5
Under 12 C.F.R. 163.180(d)(12), savings and loan
associations such as Spencer, and other filing entities
under similar provisions, are prohibited from revealing
information regarding a SAR:
(12) Confidentiality of SARs. A SAR, and any
information that would reveal the existence
of a SAR, are confidential, and shall not
be disclosed except as authorized in this
paragraph (d)(12).
(i) Prohibition on disclosure by savings
associations or service corporations (A) General rule. No savings association or
service corporation, and no director, officer,
employee, or agent of a savings association
or service corporation, shall disclose a SAR
or any information that would reveal the
existence of a SAR. Any savings association or
service corporation, and any director, officer,
employee, or agent of any savings association
or service corporation that is subpoenaed or
otherwise requested to disclose a SAR, or any
information that would reveal the existence of a
SAR, shall decline to produce the SAR or such
information, citing this section and 31 U.S.C.
5318(g)(2)(A)(i) . . .
12 C.F.R. § 163.180(d)(12) (emphasis added).
A financial institution and its employees may only
disclose the information under certain circumstances if,
and only if, “no person involved in any reported suspicious

6
transaction is notified…” 12 C.F.R. § 163.180(d)(12)
(ii). Further, under 12 C.F.R. § 163.180(d)(12)(iii), the
reporting institution and its personnel are “protected
from liability for any such disclosure, or for failure to
provide notice of such disclosure to any person identified
in the disclosure, or both, to the full extent provided by
31 U.S.C. 5318(g)(3)”.
New Jersey Statutes
This case also implicates certain provisions of the New
Jersey Statutes governing savings and loan associations
such as Spencer, namely N.J.S.A. § 17:12B-144, entitled
“Retirement,” and which provides, in relevant part, that:
Any State association may, by resolution of its
board, retire any account by giving at least 30
days’ written notice of its intention so to do,
which may be sent by certified mail addressed
to the member owning such account at his
address appearing on the records of the State
association. . . . From and after such retirement
date, the member owning such account shall
cease to be a member and shall have no further
rights or liabilities of membership with respect
to such account.
N.J.S.A. § 17:12B-144
Similarly, N.J.S.A. § 17:12B-112, entitled “Termination
of Membership”, provides that:
The membership of a savings member shall
terminate when the amount of his account has

7
been paid to him in full or when the transfer
of his membership to another person has been
recorded on the books of the association, or
when his account has been retired as provided
in this act. The membership of a borrowing
member shall terminate when his status as a
borrower from the association terminates or
when his membership is transferred to another
person and such transfer is recorded on the
books of the association.
N.J.S.A. § 17:12B-112
STATEMENT OF THE CASE
A. Factual Background and Decisions Below
Consistent with N.J.S.A. §§ 112, 144, Spencer’s
depositor agreement has always given Spencer the right
to close customer accounts for any reason or for no reason
at all. Seidman is an investment adviser specializing
in bank stocks who has accounts at scores of financial
institutions for the purpose of enriching himself and his
clients. Since 2004, Seidman has brought several lawsuits
against Spencer and its Directors in order to enhance his
ability to obtain a seat on Spencer’s Board. [Da118-261]
Seidman’s efforts to gain control of Spencer led him,
in Spencer’s view, to violate New Jersey’s RICO statute,
1. Citations to the Record on Appeal below, Appendix
Submitted on Behalf of Defendants-Appellants, Lawrence B.
Seidman v. Spencer Savings Bank, S.L.A., Superior Court of
New Jersey Appellate Division, Docket No. A-002039-17T3,
will be made as “Da”.

8
N.J.S.A. §§ 2C:41-1 et seq. On March 23, 2016, Spencer
brought a RICO counterclaim against Seidman. [Da163064] In April 2016, Spencer closed the accounts of Seidman,
his family members and his affiliates ( the “Seidman
Accounts”) and sent to Seidman checks covering all
principal and interest due through the maturity of the
certificates of deposit in the Seidman Accounts. [Da106466]
Seidman sought unsuccessfully to reopen the Seidman
Accounts by motion and brought a second amended
complaint seeking damages for the closure of the Seidman
Accounts. [Da359-63] He then filed a second, equally
unsuccessful motion to reopen the accounts. [Da323-31]
The trial court held on November 14, 2016 that Spencer
had the “right to close or refuse to open accounts with
or without cause” and that “[a] bank can unilaterally
terminate a customer’s account, and that customer does
not have a right to do business with a particular bank.”
[Da582]
After trial of the underlying case, however, the trial
court reversed itself and ordered Spencer to reinstate the
accounts. [Da11] The Appellate Division, notwithstanding
binding authority to the contrary, Ambruster v. Nat’l
Bank of Westfield, 116 N.J.L. 122, 122 (N.J. E & A 1936),
affirmed the reinstatement, holding there was no showing
that Seidman had done anything wrong, and created this
new rule of law:
[a]s a matter of law, the bank’s contractual
relationship with its depositors, including
Seidman and his associates, is subject to
an implied covenant of good faith and fair

9
dealing. [citation omitted]. “The obligation to
perform in good faith exists in every contract,
including those contracts that contain express
and unambiguous provisions permitting either
party to terminate the contract without cause.”
[citation omitted]. That obligation was not
honored in this case.
37-38a.
Thus, under this decision, a bank can only close an
account if it can show “good faith” as the court determines
it after the fact. The Appellate Division’s decision places
an unjustifiable burden on any financial institution seeking
to comply with the BSA and to operate its business free of
customers that engage in suspicious activities. If Spencer
did not terminate the Seidman Accounts, it exposed itself
to liability for complicity in Seidman’s misconduct. The
New Jersey Supreme Court denied certification without
opinion and without addressing Petitioners’ argument
that the Appellate Division’s decision contravenes federal
banking policy. See Petition for Certification and Appendix
Submitted on Behalf of Defendants-Petitioners (“NJ
Pet.”) at 18-20, Lawrence B. Seidman, v. Spencer Savings
Bank S.L.A, et al., Supreme Court of New Jersey C-637
September Term 2019 083642.

10
REASONS FOR GRANTING THE PETITION
I.

THE DECISIONS BELOW CON TRAV EN E
FEDERAL LAW AND POLICY ON AN ISSUE OF
NATIONAL IMPORTANCE

This case is of immense importance not just to banks
throughout the country that seek to comply with the
obligations imposed upon them under the BSA but also
to federal law enforcement agencies that rely upon banks
to provide early warnings of terrorist activities, money
laundering and other financial crimes. Requiring a bank to
prove cause for termination of an account chills banks from
performing their responsibilities as financial gatekeepers
and undermines the strong public policy that impelled
the BSA. It also places banks in an untenable position in
deciding whether to terminate an account for suspicious
activity. The Safe Harbor Provision in the BSA, 31 U.S.C.
§ 5318(g)(3), was intended to protect financial institutions
that comply with the BSA.
The decisions below vitiate that protection because a
bank that feels an obligation to file a SAR must terminate
the account of the customer to avoid a charge that it acted
in complicity with the customer’s suspicious activities.
However, under the precedent established by this case, a
bank faces civil liability to a customer for breach of good
faith if it terminates the account. This risk of customer
retaliation is a disincentive to the bank’s compliance with
the duties imposed by the BSA. Further, some state
courts have sought to dilute the Safe Harbor provision’s
protections by holding that its protection attaches only if
the SAR is filed in good faith, see, e.g., Bank of Eureka
Springs v. Evans, 109 S.W.3d 672 (Ark. 2003); Doughty

11
v. Cummings, 28 So. 3d 580, 583 (La. Ct. App. 2009), and
although the weight of federal court decisions is to the
contrary, there is a split among Circuits on this point.
See AER Advisors, Inc. v. Fidelity Brokerage Services,
LLC, 921 F.3d 282 (1st Cir. 2019) cert denied _U.S._ (2020);
Stoutt v. Banco Popular de Puerto Rico, 320 F.3d 26 (1st
Cir. 2003); Lee v. Bankers Tr. Co., 166 F.3d 540, 544 (2d
Cir. 1999). But see Lopez v. First Union National Bank
of Florida, 129 F.3d 1186 (11th Cir. 1997). To effectuate
the purposes of the BSA, the Court should resolve this
split and eschew any requirement of showing good faith
in the termination of a customer’s account.
The BSA was enacted in 1970 against a backdrop
of growing concern about the use of bank accounts for
tax evasion and money laundering. It has been amended
many times in order to respond to developing risks
to the integrity of the financial systems of the United
States. In the BSA, Congress imposed upon financial
institutions the obligation to monitor customers’ accounts
for illegal activities because those institutions are in the
best position to identify such activities. See Matthew R.
Hall, An Emerging Duty to Report Criminal Conduct:
Banks, Money Laundering, and the Suspicious Activity
Report, 84 Ky L.J., Article 8 (1996) (hereinafter “Hall”);
Whitney Adams, Effective Strategies for Banks in
Avoiding Criminal, Civil, and Forfeiture Liability in
Money Laundering Cases, 44 Ala. L. Rev. 669 (1993)
(hereinafter “Adams”).
The BSA’s reporting provisions are central to the BSA
statutory scheme and are specifically intended to further
“the strong public policy that underlies the SAR system
as a whole --namely, an environment that encourages a
national bank to report suspicious activity without fear of

12
reprisal.” Confidentiality of Suspicious Activity Reports,
75 Fed. Reg. at 75,579 n.23. To accomplish this, the SAR
must be strictly confidential. The Office of the Comptroller
of the Currency has set forth compelling policy reasons for
maintaining the confidentiality of information that would
“reveal the existence of a Suspicious Activity Report,
and believes that even the occasional disclosure of a SAR
could chill the willingness of a national bank to file SARs
and to provide the degree of detail and completeness in
describing suspicious activity in SARs that will be of use to
law enforcement.” Norton v. U.S. Bank N.A., 324 P.3d 693,
696 (Wash. Ct. App. 2014). Accordingly, the Regulations
create a privilege that shields the SAR from discovery.
12 C.F.R. § 163.180(d)(12).
Although the regulations provide that the underlying
facts, transactions, and documents upon which a SAR is
based are subject to disclosure, see 12 C.F.R. § 21.11(k)
(ii), the BSA protects the confidentiality of documents
related to a bank’s internal inquiry or review of accounts
even if they are not submitted to the government, and
many courts have extended the privilege to information
far beyond the SAR itself. See, e.g., Norton, 324 P.3d at
699; Union Bank of California N.A. v. Superior Court, 29
Cal. Rptr. 3d 894 (Cal. Ct. App. 2005). The dilemma is not
ameliorated by the regulation or case law implementing it.
See e.g., Cotton v PrivateBank & Trust Co., 235 F.Supp.2d
809, 814 (N.D. Ill. 2010). The line between permissible
disclosures and a prohibited disclosure of information
contained in or that would disclose the contents of a SAR
is far from clear. It requires a bank to guess at its peril
and potentially forfeit its most potent defense. Thus, in
Norton, the court held that the bank’s internal system
for detecting and investigating suspicious activity is so
intertwined with its reporting obligations that nothing

13
could be produced in discovery. Norton, 324 P.3d at 699.
See also Union Bank, 29 Cal. Rptr. 3d at 903.
As such, materials that may expose the existence of
a SAR may not be discovered, nor used by the bank in a
civil litigation, and the privilege may not be waived by the
bank. Critically, the bank may not disclose the existence of
a SAR even if it is necessary to establish its defense to a
claim and the court has no power to abrogate the privilege.
See, e.g., Lee, 166 F.3d at 544; Norton, 324 P.3d at 696. 2
Where facts exist that may warrant the filing of a
SAR, termination of the account is a practical necessity
lest the bank itself be charged with complicity in the
suspicious conduct:
Where banks become aware of facts which lead
to the reasonable presumption that money held
on deposit derives from criminal activity or
that transactions entered into are themselves
criminal in purpose, appropriate measure,
consistent with the law, should be taken; for
example, to deny assistance, sever relations
with the customer, and close or freeze accounts.
Bank Secrecy Act/Anti-Money Laundering Comptroller’s
Handbook September 2000 at 86.
2. Although undeniably a question of federal law, much of
the relevant law regarding SARs and the Safe Harbor provision
has been made in state courts. See e.g., Bank of Eureka Springs v.
Evans, 109 S.W.3d 672 (Ark. 2003); Norton v. U.S. Bank N.A., 324
P.2d 693 (Wash. Ct. App. 2014); Doughty v. Cummings, 28 So. 3d
580 (La. App. 2009); Rachuy v. Anchor Bank, No. A09299, 2009 WL
3426939 (Minn. Ct. App. Oct. 27, 2009); Union Bank of California
N.A. v. Superior Court, 29 Cal. Rptr. 3d 894 (Cal. Ct. App. 2005).

14
Indeed there is no alternative to termination in these
circumstances:
Banks are “sitting ducks” for money laundering
prosecutions if they continue transactions with
customers whom they have reported on criminal
referral forms and should rarely continue these
relationships. Once a decision has been made to
criminally refer the customer, the bank should
ordinarily sever the relationship ….
Adams, supra at 701.
Thus, absent an explicit request by the Government
to the contrary, the filing of a SAR will almost always be
coupled with termination of the customer’s account.
II. THE SAFE HARBOR PROVISION SHOULD BE
HELD TO APPLY TO CLAIMS OF WRONGFUL
TERMINATION
While an account holder will not know whether a bank
has filed a SAR, it may infer this, rightly or wrongly,
from a termination and may seek to bring a wrongful
termination action against the bank. This creates a
situation detrimental to the policy of the BSA as: “[a]
bank [ ] may be reluctant to prepare [a] SAR if it believes
that its cooperation may cause its customers to retaliate.”
Cotton, 235 F.Supp.2d at 815; see also Union Bank, 29
Cal Rptr 3d. at 903.

15
The results of such a suit can be devastating. For
example in Ricci v. Key Bancshares, Inc. 662 F. Supp.
1132, 1137-38 (D. Me. 1987), a bank that had terminated
its customers’ account, cutting off their credit, after it
had made an inaccurate criminal referral pursuant to a
previous reporting scheme under the BSA, was held liable
to its customers for $15 million in damages.
Moreover, because of confidentiality requirements,
a bank defending a wrongful termination suit cannot
point to a SAR or its investigation in anticipation of filing
a SAR to establish a good faith defense. This leaves the
bank in a highly vulnerable position. The Safe Harbor
provision in the BSA was designed to remedy this
Hobson’s choice by furthering the likelihood that banks
will bring perceived customer wrongdoing to the attention
of regulators and law enforcement. The legislative history
of the Safe Harbor provision reveals that it was intended
to apply to termination claims and that the bank should
be immunized from liability in such circumstances: “…
financial institutions should be free to sever relations with
the customer based on their suspicions or on information
about a customer received from law enforcement.” Hall,
supra at 665-66 quoting 161, 137 Cong. Rec. S16,64001, S16,647 (daily ed. Nov. 13, 1991) (statement of Sen.
D’Amato (R-N.Y)).
The Safe Harbor provision was designed to provide
“the broadest possible exemption from civil liability for
the reporting of suspicious transactions.” Stoutt, 320 F.3d
at 31 (quoting 139 Cong. Rec. E57–02 (1993)). In a letter
to Chemical Bank, Representative Annunzio, the former
Chair of the House Committee on Banking, Finance and
Urban Affairs Subcommittee on Financial Institutions,
Supervision, Regulations and Insurance, stated that:

16
section 1517(b) amends section 5318 of Title 31,
United States Code, to provide the broadest
possible exemption from civil liability for
the reporting of suspicious transactions. My
colleagues and I in Congress wanted to assure
that financial institutions which reported
suspicious transactions should not be held liable
to any person under any law, federal, state or
local, for making such disclosures. It was my
intent as the author of the provision that it
would apply to any such disclosure, regardless
of whether the disclosure was made prior or
subsequent to the date of the enactment of the
Act.
Letter from Rep. Frank Annunzio to Barbara E. Daniele,
Associate General Counsel, Chemical Bank, dated
December 1, 1992. 139 Cong. Rec. E57 (daily ed., Jan.
5, 1993)). In short, “banks are required to comply with
5318(g)(3) and, in return, banks receive immunity.” Joseph
v. Bancorpsouth Bank, 414 F.Supp.2d 609, 612 n. 2 (S.D.
Miss. 2005).
Notwithstanding the foregoing, and the expansive
language of the statute and regulations, some authorities
view the Safe Harbor provision as ambiguous as to
whether it applies to claims of wrongful termination. Hall,
supra at 665-66. It is imperative that this Court resolve
the perceived ambiguity if the BSA is to be effective in
implementing the strong public policies that underlie the
SAR system and to protect banks from manifest injustice.
Further, any requirement of good faith as a predicate
for termination of a customer account is repugnant to

17
the Safe Harbor provision. As the Second Circuit held
in Lee, 166 F.3d at 544, in determining that the Safe
Harbor provision did not include any requirement that
the reporting institution acted in good faith when it
reported suspicious activity, the imposition of a “good
faith” requirement is improper and essentially precludes
the financial institution from seeking summary judgment.
It means that a depositor can simply claim on information
and belief that a bank terminated its account without
meeting the good faith requirement, leaving it up to the
bank to defend itself, which it cannot do. If the bank sought
summary judgment, it would have to establish that the
reason it terminated the account was because it had filed
a SAR, but it is absolutely precluded from doing so.
The Lee court concluded: “It flies in the face of common
sense to assert that Congress sought to impale financial
institutions on the horns of such a dilemma.” Id. Tellingly,
a requirement that the SAR must be filed in “good faith”
to invoke the protections of the Safe Harbor provision was
rejected before the provision was enacted. See 137 Cong.
Rec. S16,642 (1991). AER Advisors, 921 F.3d at 293; Stoutt,
320 F.3d at 30-32. As set forth above, notwithstanding this,
many states have sought to marginalize the Safe Harbor
provision by engrafting a good faith requirement onto
it. The Court should take this opportunity to resolve the
conflict that exists on this question.
The likelihood that banks would try to buy protection
by filing frivolous SARs or otherwise seek to exploit a rule
that the filing or potential filing of a SAR immunizes the
bank from liability for wrongful termination of an account
is de minimus. “[R]emedies other than private damage
actions are available for willfully false reports.” Stoutt,

18
320 F.3d at 32. A financial institution is, potentially, subject
to significant liability when it files a SAR. Not only can
there be regulatory penalties for filing a false report but a
financial institution that the government suspects of being
involved in the suspicious activity in question may become
the focus of an investigation which can require large sums
of money to defend against. Under 18 U.S.C. § 1957, for
example, a financial institution can be sanctioned if it
keeps a depositor’s account after it has made a report; and
then knowingly continues its relationship with a criminal
customer. Under 18 U.S.C. §§ 981 and 982, it can also face
both civil and criminal forfeiture of its assets. See Adams,
supra at 684-87.
Accordingly, the Court should grant this Petition
and make clear that in cases where the filing of a SAR
may be implicated, the Safe Harbor provision applies to
termination of accounts and precludes any requirement
of good faith or other cause for such termination.
III. TH E N EW JER SEY COU RT ’ S DECISION
VIOLATES THE PREEMPTION DOCTRINE.
Assuming the Safe Harbor provision does not extend
to claims of wrongful termination of accounts, the Court
should determine whether the rule of law prescribed
by the New Jersey Appellate Division is preempted by
federal law on the ground that it stands as an obstacle to
the accomplishment of the BSA’s obvious purposes.
Congress has the power to preempt state law. Art.
VI, Cl. 2, California v. ARC America Corp., 490 U.S. 93
(1981). Indeed, state law must yield to an act of Congress
where Congress intends federal law to “‘occupy the field,’”
id. at 100 (citing Charleston v. Western Carolina R. Co.

19
v. Varnville Furniture Co., 237 U.S. 597, 604 (1915)), and
where state law conflicts with a federal statute. Hines v.
Davidowitz, 312 U.S. 52, 66-67 (1941); ARC America, 490
U.S. at 100-101. Thus, preemption exists where a party
cannot comply with both state and federal law, see, e.g.,
Florida Lime & Avocado Growers, Inc. v. Paul, 373 U.S.
132, 142–143 (1963), and where “under the circumstances
of [a] particular case, [the challenged state law] stands as
an obstacle to the accomplishment and execution of the
full purposes and objectives of Congress.” Hines, 312
U.S. at 67.
Statutory silence may well mean that a state’s action is
inappropriate. In United States v. Arizona, 567 U.S. 387,
406 (2012), this Court found that federal law preempted
an Arizona law that imposed criminal penalties on aliens
for seeking unauthorized employment because it created
a penalty and the “text, structure and history” of the
federal act indicated that Congress decided it would be
inappropriate to do so.
Certainly, as Justice Thomas observed, concurring
in Wyeth v. Levine, 555 U.S. 555, 588 (2009), “[e]vidence
of pre-emptive purpose must be sought in the structure
of the provision at issue” in order to comply with the
Constitution, and if there are two plausible interpretations
of a federal statute, the one that “disfavors pre-emption”
should be accepted. Bates v. Dow Agrosciences, LLC,
544 U.S. 431, 449 (2005) (where the statute’s text allows
more than one plausible reading, courts should “accept
the reading that disfavors pre-emption.”) Here, however,
there is no alternative interpretation available. The BSA
and its regulations require that a financial institution file
a SAR when it observes a depositor engaging in suspicious
activity and prohibit the institution from revealing that

20
it has filed a SAR. But, as Congress has also recognized,
the financial institution will terminate the depositor’s
account when it files a SAR. If it cannot terminate the
account because it cannot say why it has done so, then
the financial institution is less likely to file the SAR in the
first place. The tension between the BSA and a state law
permitting termination of an account only in “good faith”
impermissibly frustrates the BSA.
In sum, by its decision, the New Jersey Appellate
Division put banks like Spencer in an impossible position
once they perceive they may have an obligation to file
a SAR. They can keep the account active and risk civil
liability for facilitating the customer’s illegal conduct;
they can terminate the account and violate the BSA by
disclosing information about the SAR; or they can risk an
adverse finding (as Spencer did) by reason of an inability
to show good faith or other cause for termination.
Imposing such a Hobson’s choice undermines the
BSA and the vital policies it furthers. This Court should
take the opportunity to clarify that the Safe Harbor
provision of the BSA applies to customer claims of
wrongful termination and, in cases where the existence
vel non of a SAR may be implicated, that a court may
not impose a good faith requirement as a justification for
termination.

21
CONCLUSION
For the foregoing reasons, this petition for a writ
of certiorari should be granted.
Respectfully submitted,
Helen Davis Chaitman
Counsel of Record
Lance Gotthoffer
Chaitman LLP
465 Park Avenue
New York, New York 10022
(888) 759-1114
hchaitman@chaitmanllp.com
Attorneys for Petitioners
August 5, 2020

APPENDIX

1a
Appendix
A DISCRETIONARY
APPENDIX A — DENIAL
OF
REVIEW OF THE SUPREME COURT OF NEW
JERSEY, FILED MARCH 13, 2020
SUPREME COURT OF NEW JERSEY
C-637 September Term 2019
083642
LAWRENCE B. SEIDMAN,
Plaintiff-Respondent,
v.
SPENCER SAVINGS BANK, SLA,
JOSE B. GUERRERO, PETER J. HAYES,
NICHOLAS LORUSSO, BARRY MINKIN,
JOHN STURGES, ANTHONY S. CICATIELLO,
AND ALBERT D. CHAMBERLAIN,
Defendants-Petitioners.
LAWRENCE B. SEIDMAN,
Plaintiff-Respondent,
v.
SPENCER SAVINGS BANK, SLA,
JOSE B. GUERRERO, PETER J. HAYES,
NICHOLAS LORUSSO, BARRY MINKIN,
JOHN STURGES, ANTHONY S. CICATIELLO,
AND ALBERT D. CHAMBERLAIN,
Defendants-Petitioners.
ORDER
A petition for certification of the judgment in
A-2039/4739-17 having been submitted to this Court, and
the Court having considered the same;

2a
Appendix A
It is ORDERED that the petition for certification is
denied, with costs.
WITNESS, the Honorable Stuart Rabner, Chief
Justice, at Trenton, this 10th day of March, 2020.
		
		

/s/
CLERK OF THE SUPREME COURT

3a
AppendixOF
B THE SUPERIOR
APPENDIX B — OPINION
COURT OF NEW JERSEY, APPELLATE
DIVISION, FILED OCTOBER 3, 2019
SUPERIOR COURT OF NEW JERSEY,
APPELLATE DIVISION
DOCKET NOS. A-2039-17T3, A-4739-17T4
LAWRENCE B. SEIDMAN,
Plaintiff-Respondent,
v.
SPENCER SAVINGS BANK, SLA, JOSE B.
GUERRERO, PETER J. HAYES, NICHOLAS
LORUSSO, BARRY MINKIN, JOHN STURGES,
ANTHONY S. CICATIELLO, AND ALBERT D.
CHAMBERLAIN,
Defendants-Appellants.
––––––––––––––––––––––––––––––
LAWRENCE B. SEIDMAN,
Plaintiff-Appellant,
v.

4a
Appendix B
SPENCER SAVINGS BANK, SLA, JOSE B.
GUERRERO, PETER J. HAYES, NICHOLAS
LORUSSO, BARRY MINKIN, JOHN STURGES,
ANTHONY S. CICATIELLO, AND ALBERT D.
CHAMBERLAIN,
Defendants-Respondents.
September 16, 2019, Argued
October 3, 2019, Decided
On appeal from the Superior Court of New Jersey,
Chancery Division, Passaic County,
Docket No. C-000053-15.
Before Judges Sabatino, Sumners, and Geiger.
PER CURIAM
These appeals1 represents the fifth time this court
has been asked to address this ongoing dispute between
plaintiff Lawrence B. Seidman, an attorney and money
manager, and defendant Spencer Savings Bank, SLA
(“Spencer” or “the bank”), a mutual savings and loan
association established pursuant to the New Jersey
Savings and Loan Act, N.J.S.A. 17:12B-1 to - 319 (the
“SLA”). 2
1. The appeals were argued back-to-back and we consolidate
them for purposes of this opinion.
2. See Seidman v. Spencer Sav. Bank, S.L.A., No. A-3899-04,
2006 N.J. Super. Unpub. LEXIS 97 (App. Div. March 23, 2006)

5a
Appendix B
Seidman and several of his relatives have been
depositors at the bank. He contends the bank’s Board
of Directors and Chief Executive Officer (“CEO”) are
entrenched, and they have mismanaged the bank and
reaped excessive compensation and other perks. The
bank contends, on the other hand, that it has been soundly
managed, and that Seidman is improperly trying to wrest
control of the bank for personal gain.
Through a by-law adopted in 1995, the bank established
a ten-percent threshold of total depositors for nominating
Board members. Seidman sued to invalidate the threshold
as too onerous, given the thousands of depositors at the
bank. In ensuing years, the bank attempted to raise the
nominating threshold to twenty percent and then fifteen
percent, both of which were judicially invalidated. The
ten-percent threshold was reinstated.

(“Seidman I”) (remanding certain issues respectively to the
trial court and to the Commissioner of Banking and Insurance);
Seidman v. Spencer Sav. Bank, Nos. A-0167-07, A-1036-07,
A-1343-07, 2009 N.J. Super. Unpub. LEXIS 2802 (App. Div.
Nov. 9, 2009) (“Seidman II”) (remanding certain issues to the
Commissioner for amplification); Seidman v. Spencer Sav. Bank,
S.L.A., Nos. A-0167-07, A-1036-07, A-1343-07, 2010 N.J. Super.
Unpub. LEXIS 1783 (App. Div. July 27, 2010) (“Seidman III”)
(affirming certain rulings by the trial court and the Commissioner,
but allowing plaintiff to file a new complaint), certif. denied, 204
N.J. 42, 6 A.3d 444 (2010); Seidman v. Spencer Sav. Bank, No.
A-3836-12, 2015 N.J. Super. Unpub. LEXIS 999 (App. Div. April
30, 2015) (“Seidman IV”) (affirming the trial court’s invalidation
of the fifteen percent nominating threshold, but remanding for
reconsideration of counsel fee award).

6a
Appendix B
Following a bench trial, a Chancery judge invalidated
the ten-percent threshold and replaced it with the
nominating threshold used by federal credit unions, which
is the lesser of one percent of the membership or 500
members. The judge further ordered the bank to reinstate
the accounts of Seidman and his family that it had closed
during the litigation, and awarded Seidman counsel fees.
The bank appeals in A-2039-17 the trial court’s
findings. It argues that Seidman’s present lawsuit is
procedurally barred for various reasons, and, in any event,
Seidman produced no empirical evidence showing that
the ten-percent threshold is per se unreasonable. The
bank contends the threshold is protected by the business
judgment rule, and that it acted within its rights in closing
Seidman’s accounts. Finally, the bank argues that counsel
fees were improperly awarded and that an evidentiary
hearing was required to determine the reasonableness
of the fee request.
The New Jersey Department of Banking and Insurance
(“DOBI”) has intervened in this appeal. Intervenor argues
the Chancery court lacked authority under the SLA to
unilaterally establish a nomination threshold without first
obtaining the approval of the DOBI’s Commissioner.
In his related appeal in A-4739-17, Seidman argues
the trial court erred in declining to order the bank to
reinstate the so-called “Wawel” accounts held by himself
and persons affiliated with him.
For the reasons that follow, we affirm in part and
vacate in part the trial court’s orders.

7a
Appendix B
I.
We presume the reader’s familiarity with the factual
background and procedural events that led to the hearings
and judicial rulings that are the subject of this fifth appeal.
For sake of brevity, we summarize those most recent
hearings and the trial court’s decisions.
1. The Ten-Percent Threshold
Seidman’s evidence concerning the ten-percent
threshold at the 2017 bench trial was almost identical
to the evidence he presented at the earlier trials, when
he challenged the twenty percent and fifteen percent
thresholds. As in the earlier proceedings, Seidman called
several members of the Board and upper-level bank
managers to testify concerning the bank’s membership,
the composition of the Board, and the voting procedures.
Seidman’s evidence showed that the average Spencer
depositor (known as a “member”) is a blue collar
individual, possibly a recent immigrant. Spencer does
not possess computer software to tabulate the precise
number of voting members, and for that reason it retains
outside firms when a census of members is required.
During trial, Spencer hired the stock brokerage firm of
Raymond James to count the membership. According to
the Raymond James report, as of June 16, 2017, the bank’s
membership was 57,749, with the number of eligible voters
being 53,949. 3
3. The difference between these numbers is due to the fact
that only one person can vote per account, and account holders
below the age of sixteen are ineligible to vote.

8a
Appendix B
Spencer’s Board consists of seven directors who
receive a salary of $70,000 to $75,000 per year, a health
insurance policy, and a retirement plan. In exchange for
that compensation, the directors are required to attend
twelve monthly meetings each year and serve on various
committees.
Spencer’s CEO and Board Chairman is Jose Guerrero,
who has been unanimously elected by the directors each
year since 2006. His annual salary is $880,000 with a
bonus of $1.2 million. As the result of By-Law 9, which
was adopted in 2014, if Guerrero should fail to win reelection to the Board, an eighth director position must be
created and Guerrero must be appointed to it. All of the
directors currently on the Board were personally invited
to join by Guerrero.
The directors of the bank are elected to threeyear staggered terms. Elections are held at the annual
meeting at the end of January, which is open to the
entire membership. Although notices are published
in newspapers, Spencer’s website, and postings at the
branch offices, only about 300 members usually attend
the meeting. A member can vote in person or by proxy at
the meeting, and can also mail in a vote in advance. By
far, the majority of votes cast are the result of “running
proxies,”4 signed over to the Board by members when they
open an account. In the 2017 election, approximately 6,700
members voted by proxy.
4. Seidman explained that in a running proxy, a member gives
either certain Board members or the entire Board the right to vote
their membership interest without checking with that member as
to what he or she wants to do.

9a
Appendix B
There are two paths to gaining a seat on the Board.
In one path, the Board’s nominating committee chooses a
candidate, and once nominated that candidate is eligible to
stand for election by the membership. A person selected
by the nominating committee is not required to satisfy
the ten-percent threshold. Because a quorum is defined
as one person, a candidate can be voted onto the Board
by a single vote margin. In the second path, an individual
seeking nomination must obtain the support of ten-percent
of the eligible voters. This ten-percent threshold only
applies to outsiders who want a seat on the Board. No one
has ever obtained a seat on the Board through the second
path. In fact, other than Seidman, no outsider in the last
fifty years has attempted to nominate a Spencer director.
Under the SLA, members’ names are confidential
and cannot be released to individuals who want to
run for a Board seat. Rather, the individual seeking
nomination must request that the bank send a letter to the
membership on his or her behalf. The SLA requires that
the individual pay the cost of mailing, which in Spencer’s
case would amount to approximately $50,000. See N.J.S.A.
17:12B-119 to -120. 5
As we have noted, Spencer is a state-chartered
savings and loan institution, subject to the oversight of
both state and federal regulators. As a mutual institution,
Spencer has a community focus and a close relationship to
its customers. The directors believe that if the bank were
converted to a stock institution, its focus would change
and its commitment to the community would disappear.
5. We need not address here whether this mailing requirement
is antiquated, which instead is a question for the Legislature or
the Commissioner.

10a
Appendix B
The directors expressed concern that if there were
no nominating threshold, anyone could put his or her
name up for nomination. According to the directors, the
threshold requirement was established to avert chaos and
prevent an unqualified person from being elected to the
Board. Thus, when the directors adopted the ten-percent
threshold in 1995 and subsequently raised it to twenty
percent, their main concern was to keep Seidman and
his group of professional investors from obtaining a seat
on the Board.
Seidman testified that he is a licensed attorney who
has been involved in the banking industry since 1983.
He is a money manager whose business receives twenty
percent of his clients’ appreciation on investments. He
has a controlling interest in several banks, due to not only
investments of his personal funds but also investments
made on behalf of his clients.
Seidman has served on the boards of eleven banks,
but never on the board of a mutually owned institution. He
explained that all of the banks with which he was involved
had vetting procedures incorporated into their by-laws
that required the submission of certain documentation,
and sometimes even an interview, at least ninety days
prior to the request to become a director. Spencer has
no analogous vetting procedures in its by-laws. Seidman
stated that he knew of no other bank besides Spencer that
had a nomination threshold.
Seidman opened his first account at Spencer in 1988.
He contacted the bank’s management in 2004 when he

11a
Appendix B
heard a rumor that the bank might be “going public.” He
wrote to Guerrero, and after receiving no response, he
was able to reach him by phone. Seidman recalled that
Guerrero was hostile and refused to answer questions.
Immediately after the phone call, Seidman wrote a
letter attempting to nominate himself to the Board. On
learning of the ten-percent nomination threshold, Seidman
prepared a petition and sought signatures while standing
on public property near defendant’s branch offices. He
claims that officers of the bank accosted him and told him
to leave or they would call the police.
Seidman next submitted a letter to the Board, asking
that it be mailed to the membership. That letter was
rejected as deficient. Seidman explained that he did not
pursue sending out another letter because he believed
that it would be futile. From the date of the trial court’s
decision in 2012 reinstating the nomination threshold at
ten-percent up through the time of the 2017 trial, Seidman
made no effort to nominate anyone to a director’s seat on
the Board.
In its defense, Spencer presented expert testimony
from Thomas Cronin, who had been involved in the
banking industry for thirty-four years as a proxy
solicitation specialist. Cronin stated that he had worked for
and against Seidman in the past. He described Seidman’s
practice of gaining control of banks and converting them
to stock companies. Cronin admitted that his experience
with mutuals was limited and that he had never solicited
votes for a director’s seat on a mutual board. Cronin also

12a
Appendix B
admitted that conversion was not necessarily a bad thing
and that an investor might potentially lose money by
buying stock after a conversion.
Cronin maintained that the twenty-percent nomination
threshold the bank had previously adopted had been
reasonable. He believed that lowering the threshold below
its present ten-percent level would be disruptive because,
in light of Spencer’s lack of vetting procedures, anyone
could be nominated. Cronin stated that a nomination
threshold of ten-percent was achievable.
John Sturges, who had served on the Board since
2007, testified that the SLA requires members who wish
to communicate with other members to do so by mailings
sent by the bank itself. The member who requests such a
mailing must pay the cost himself or herself, and that cost
would be the same regardless of the nomination threshold
percentage. Thus, it would cost exactly the same to send
out a mailing, regardless of whether the threshold was
five percent or fifteen percent, because a letter would still
have to go to all of the members.
2. The Nomination Standard Used By Federal Credit
Unions
Seidman presented expert testimony from Robert
Fenner, who was employed for over thirty-five years as
an attorney for the National Credit Union Administration
(“NCUA”), the federal agency that oversees the credit
union system.

13a
Appendix B
Fenner stated that there are 5,275 federally insured
credit unions in the United States, of which about
two-thirds are federally chartered and operate under
the standard by-laws promulgated by the NCUA. He
explained that federal credit unions are member-owned
cooperatives, not stock corporations. They operate in
much the same way as a commercial bank but they don’t
have shareholders. Their boards of directors are elected
by the membership on the basis of one member, one vote.
These boards have a fiduciary duty to act only in the best
interests of the members.
As a result, credit unions usually offer higher deposit
rates and charge lower loan rates than commercial banks.
The rates are lower, in fact, than those offered by mutual
savings banks like Spencer. Federal credit unions range in
size anywhere from 100,000 members, and a few thousand
dollars in assets to six million members and seventy-nine
billion dollars in assets.6
Fenner testified the nomination process is the same
in all federally chartered credit unions, regardless of
their size. Every federal credit union must have a board
of directors of no fewer than five and no more than fifteen
members, who serve staggered two- or three-year terms.
The election for director seats that are expiring occurs at
an annual meeting, and the process is comparable to that
at a mutual savings bank. The existing board establishes a
nominating committee that nominates directors to fill the
6. For the sake of comparison, Spencer has approximately
$3,000,000,000 (three billion dollars) in assets.

14a
Appendix B
upcoming vacancies. In addition, seventy-five days before
the annual meeting, the credit union is required to send
notice to the members that they can nominate individuals
by petition. Members have thirty days to gather the
required number of signatures and submit a petition.
The NCUA by-laws set the number of required
signatures as one percent of the membership, but no fewer
than twenty and no greater than 500. Thus, for largersized credit unions, nomination by petition can be obtained
with 500 signatures. The one-percent or 500-signature
by-law has been in place for many years, and was recently
reviewed in 2006. The threshold was retained on review
because the NCUA felt that a higher number would make
it too difficult for the average member to participate in
the election process.
Under the Federal Credit Union Act (“FCUA”) , 12
U.S.C. §§ 1751 to 1795k, members are not entitled to
obtain a membership list or communicate with the entire
membership. There are only three ways for members to
obtain 500 signatures on a nomination petition: (1) stand
outside of bank offices and collect signatures; (2) obtain
signatures from family and friends; and (3) send emails
to people they know and ask that those emails be passed
along to others. Fenner believed that giving members
access to a membership list and directing them to send
a mailing would be meaningless to the average member.
He cited the Navy Federal Credit Union as an example,
where with six million members, an average member could
not hope to comply with a mailing requirement.

15a
Appendix B
Fenner stated that the petition process imposed by the
NCUA by-law has been used successfully more than once,
although he could not specifically recall how many times.
He opined there is a great deal of comparability between
a federal credit union and a mutual savings association.
Both are member-owned and both are motivated to serve
customers in the best possible way. Fenner admitted,
however, that Spencer is regulated by the New Jersey
DOBI and the FDIC, not by the FCUA. He also admitted
that he is not an expert on New Jersey’s SLA.
Seidman presented no witness other than Fenner
to support his request that the nomination threshold be
reduced to one percent or 500 members. Seidman did
testify, however, that if the less-onerous FCUA standard
were adopted, he would return to public spaces outside of
Spencer’s branch offices and ask people to sign his petition.
He would also contact family members and the brokerage
community in an effort to collect signatures.
Spencer presented no expert witness to rebut Fenner’s
testimony, nor to discuss the regulatory differences
between a mutual savings and loan association and a
federal credit union.
3. The Closure of Seidman’s Bank Accounts
Testimony concerning the closed bank accounts
consumed much of the trial. Seidman questioned every
director and bank officer about the decision to close his
accounts. The bank defended its decision by presenting
testimony concerning Seidman’s allegedly illicit dealings
in the banking industry.

16a
Appendix B
The bank accounts in question were closed on April 20,
2016. Not only were Seidman’s personal accounts closed,
but so were accounts belonging to his wife, his daughter,
and his son-in-law. Closed at a later date were the accounts
of two entities affiliated with Seidman — Veteri Place
Corporation and the Israeli Sports Exchange. The bank
also closed7 the attorney accounts that Seidman’s counsel
had opened in Seidman’s name pursuant to court order.
The directors testified that they first learned of these
account closures after the fact, at the Board meeting
in April 2016. They acknowledged that the Board has
the ultimate authority to close accounts, but explained
that they had delegated that authority to the bank’s
management. Nevertheless, several directors admitted
that they strongly approved of the account closures.
One director, Albert D. Chamberlain, stated that the
goal in closing Seidman’s accounts was to deprive him
of his membership so that he could no longer initiate the
nomination process.
Jane Rey, the bank’s Chief Operating Officer and First
Executive Vice-President, testified that she and Guerrero
made the decision to close Seidman’s accounts based on
the recommendation of their attorney. She recalled that on
April 15, 2016, she was called into a meeting with Guerrero
and the attorney. The attorney provided Rey with a copy
of Spencer’s counterclaim, and they discussed closing
the accounts. They also received advice from Spencer’s
7. There is conflicting evidence in the record whether Spencer
closed the attorney trust accounts or simply refused to open them.

17a
Appendix B
regulatory counsel. The decision to close the accounts was
made at that time.
Rey explained that one of the reasons for the closure
decision was that Seidman had become a “disruption” to
management. The litigation with Seidman by that point
had been an ongoing “distraction” for over ten years. The
bank had expended over three million dollars in legal
fees battling Seidman, making his the most unprofitable
accounts it ever had. In addition, Rey perceived Seidman
is a “disreputable person” who orchestrates a group of
out-of-state professional investors. Information about
Seidman’s apparent plan to take over the bank was first
unearthed in 2008 and 2009, but Rey refrained from
closing Seidman’s accounts at that time because of the
litigation. Rey likewise had wanted to close Seidman’s
accounts when the litigation first started in 2004, but the
bank’s regulatory counsel at the time advised her not to
do so. By 2016, however, Rey felt “enough was enough.”
Rey asserted that it has always been the case in
the banking business that an account can be closed
without giving a reason: “It happens routinely . . . . It’s
not a rare occurrence.” She identified the 2012 “terms
and conditions” booklet that defendant provided to new
members. The booklet contained a provision that stated:
“we may close your account at any time with or without
cause.” Rey also identified a 2009 “terms and conditions”
booklet that contained the language: “we may close this
account at any time upon reasonable notice to you and
tender the account balance personally or by mail.” An
identical provision was included in the 2003 “terms and

18a
Appendix B
conditions” booklet, and in every booklet dating back to
1993 when Rey started working at the bank. She admitted
that the “with or without cause” language was added to the
booklet in 2012, but insisted that the terms and conditions
always allowed the bank to close an account without cause.
Rey stated that once an account is closed, that
individual is no longer a member and would have no vote
as to who should be on the Board. She further stated that
the accounts of Seidman’s relatives were closed solely
because of their relationship to him.
Guerrero corroborated Rey’s testimony on these
subjects. Guerrero recalled that he met with Spencer’s
litigation counsel, Rey, and Graham Jones, the bank’s
general counsel, in April 2016. Litigation counsel had
already consulted with Spencer’s regulatory attorneys.
It was recommended that Seidman’s accounts be closed
based on the racketeering (“civil RICO”) counterclaim
against him. The fact that the claim was later dismissed
by the trial court did not change Guerrero’s mind about
the correctness of closing Seidman’s accounts.
Jones testified that he has served as Spencer’s general
counsel for almost fifty years. He regularly attends Board
meetings and his firm does transactional and collection
work for Spencer. He personally reviewed and approved
the letter sent to Seidman on April 20, 2016, closing
his accounts. Litigation counsel had advised Rey and
Guerrero that as a result of Spencer filing a civil RICO
claim against Seidman, Seidman’s accounts needed to be
closed as a matter of law. Jones agreed with that advice.

19a
Appendix B
To further justify closing Seidman’s accounts, Spencer
attempted to introduce evidence of his disciplinary
infractions, his supposed association with alleged
criminals, and his predatory practices. These proffers
were met with strong resistance from Seidman, and the
trial court curtailed much of such testimony. The evidence
that was admitted generally followed the allegations of
the bank’s affirmative defenses.
Rey testified that she became aware of Seidman’s
association with Mark Ristow while investigating accounts
opened by out-of-state residents. Ristow opened accounts
at the bank in the names of New Jersey residents, added
himself as an account signatory, and then removed the
New Jersey residents from the accounts. Ristow was
subsequently indicted by the federal government, on
unrelated grounds, for bank fraud. As to Seidman himself,
Rey noted that he had been the subject of a cease and
desist ordered issued by the Office of Thrift Supervision
(“OTS”) in the 1990s, based on his actions as director of
a federal savings and loan association.
Cronin testified that Seidman works with a group of
“opportunistic” investors by opening accounts in savings
and loans throughout the country so that if the institution
converts to a stock corporation they can make money with
little risk. First, Seidman’s group purportedly would
combine their voting interests in order to gain a seat on
the board. Once on the board, Seidman would convince
other directors to vote for a conversion and his group
would reap the profits.

20a
Appendix B
Spencer also called Neal A xelrod, Seidman’s
personal and business accountant, who testified about
the Israeli Sports Exchange, a not-for-profit foundation
organized under the Internal Revenue Code, 26 U.S.C.
§ 501(c)(3). Seidman is the president of the organization
and Axelrod is its vice-president and accountant. While
the stated goal of the Israeli Sports Exchange is to run an
exchange program for American and Israeli teenagers, a
secondary purpose is to open accounts at banks in order
to take advantage of public offerings. Axelrod had no
recollection of Seidman’s dealings with Spencer, even
though Seidman had at one time proposed nominating
Axelrod to the Board.
4. The Trial Judge’s Decisions
Upon considering the proofs, the trial judge8 issued a
written opinion on October 19, 2018. In his opinion, the trial
judge invalidated the ten-percent nomination threshold.
Among other things, the judge noted that anyone seeking
to achieve the nomination threshold through mailing must
bear the cost of mailing a solicitation to all members. That
mailing cost would exceed $50,000. The judge found “[t]he
cost of this mailing places nomination beyond the reach
of the average member.” The judge also found that, given
the size of the bank’s membership, “it is clear . . . that
the use of a static percentage nomination requirement is
unworkable. The membership of Spencer fluctuates and
cannot be determined with any degree of exactitude.”
8. We distinguish the Chancery judge who presided over
the 2017 trial (“the trial judge”) from the former Chancery judge
who had presided over the case for most of its duration, until her
retirement in June 2016.

21a
Appendix B
Additionally, the trial judge found that the bank’s
Board members have engaged in entrenching conduct. He
found the Board functioned as “a self-perpetrating body
of members,” that “virtually all [Board] members have
been invited to join the Board by Jose Guerrero,” and that
“[t]hey, in turn consistently reappoint Guerrero and
approve his very lucrative compensation package. The
judge also found it “quite clear that the [bank’s] Directors
are all beholden and defer without exception to Jose
Guerrero.”
Continuing his findings on entrenchment, the trial
judge also found “[t]he maintenance of a [ten-percent]
nomination is entrenching.” As the judge noted, “the
motivating factors of establishing and maintaining this
threshold is fear of [p]laintiff.” The trial judge found it
“clear that Board seeks to maintain total control of the
governance of the Bank without challenge.” The trial judge
also found “there is clear evidence of entrenchment which
leads to disenfranchisement.”
The trial judge rejected Spencer’s claim that the
present ten-percent threshold ensures stability and
prevents chaos, finding that claim “simply not supported
by the evidence.” Likewise, the judge rejected Spencer’s
argument that the threshold preserves mutuality. As he put
it, the “goal of mutuality is too attenuated to be relevant.
There is no evidence to conclude that conversion [of the
bank to a stock form] is necessarily a bad thing except for
some self-serving declarations, without substantiation, of
Board Members and Spencer employees.” For these many
reasons, the judge struck down the ten-percent threshold.

22a
Appendix B
As to a remedy, the trial judge was persuaded, largely
by the credible “and arguably unrefuted” testimony
of Seidman’s expert Fenner, that the one-percent/500member threshold used by federal credit unions should be
adopted here. By contrast, the judge found the testimony
of Spencer’s expert Cronin unpersuasive. Among other
things, the judge found that Cronin’s reasoning was
“flawed,” that Cronin admitted he “did not consider
Spencer’s membership size in his analysis,” and that
Cronin is “biased against [p]laintiff.”
For these multiple reasons, the trial judge vacated
the ten-percent threshold and replaced it with the onepercent/500-member threshold advocated by Fenner and
Seidman. In doing so, the judge explicitly chose “not to
leave the Directors to their own devices.”
On the issue of the bank’s closure of the accounts of
Seidman and his associates, the trial judge found Spencer’s
reasons for those closures to be “pretextual” and “in bad
faith.” The judge found “none of the reasons given by Ms.
Rey to support the closure of the accounts to be credible.”
The judge stressed that “there was no proof presented by
the defense to suggest that Seidman did anything wrong
or illegal.” Moreover, none of the fourteen witnesses the
bank called in an effort to discredit Seidman supported
the bank’s “theory that [Seidman’s family members or
associates] were engaged in some clandestine conspiracy”
with him. Accordingly, the judge ordered “reinstatement
of all subject accounts that were improperly closed.”

23a
Appendix B
As a final measure, the trial judge awarded partial
counsel fees to Seidman for his successful prosecution
of derivative claims that resulted in the court striking
down the ten-percent threshold. The judge found those
derivative claims “unquestionably” redounded to the
benefit of Spencer and its members, as a matter of corporate
governance. The judge did reject, as non-derivative,
Seidman’s counsel fees expended in the litigation of the
closure of the accounts.” The judge also rejected Seidman’s
request to remove the bank’s directors, noting the court
“will not now take such a severe, draconian step.”
5. Post-Trial Events
Following the trial, the judge granted Seidman,
over Spencer’s opposition, an award of counsel fees and
costs. The judge also granted Spencer’s motion to stay its
decision on the merits pending this appeal.
While the appeal was pending, in March 2018, Spencer
acquired by merger another entity, Wawel Financial
Services MHC (“Wawel”). The bank then closed Seidman’s
accounts that he and his son-in-law held at Wawel.
Seidman thereafter brought an order to show cause in the
Chancery court seeking the reinstatement of the Wawel
account. The trial judge denied that application, citing a
lack of jurisdiction because Spencer’s appeal was already
pending.
Although it is not germane to the present appeal,
in February 2019 the Board held a special meeting at
which it voted to adopt a plan to convert Spencer from

24a
Appendix B
a New Jersey chartered mutual savings association to a
New Jersey chartered mutual savings bank. Apparently,
if such a conversion were implemented, that would alter
the means of control of the bank. Seidman filed suit in
the Chancery Division, which temporarily stayed the
conversion measures. 9 Spencer sought emergent relief
from this court, and leave to appeal which a panel of this
court denied, and the new case was remanded to the trial
court to proceed to a hearing on a preliminary injunction
or a trial.10
As we noted at the outset, the Commissioner
has inter vened in Spencer’s appeal to assert the
Commissioner’s authority to review and approve by-laws
for banks regulated under the SLA. The Commissioner
takes no position at this time on the merits, as to whether
the one-percent/500-member threshold adopted by the
trial court is appropriate. Moreover, the Commissioner
declined to intervene in Seidman’s cross-appeal concerning
the Wawel accounts.
II.
On appeal, Spencer raises these numerous points in
its main brief:

9. By this point, a third judge was assigned the matter, as
the trial judge from 2017 had since retired.
10. We were advised at oral argument that the hearing or
trial in the conversion case has not yet occurred because of the
pendency of motion practice.

25a
Appendix B
POINT I The trial court erred in not dismissing
Counts I and II as a precluded collateral attack
A. Counts I and II [of the complaint] are barred
by the entire controversy doctrine
B. Counts I and II are barred by res judicata
C. Counts I and II are barred by collateral
estoppel
POINT II The trial court lacked the power to
invalidate the threshold and unilaterally impose
a 1% threshold by judicial fiat
POINT III The threshold is protected by the
business judgment rule
A. The trial court erred in invalidating the
threshold based on director compensation and
“entrenchment”
POINT I V The tr ial court er red in not
dismissing Counts I and II after Seidman failed
to introduce any empirical evidence
POINT V The trial court erred in holding that
the law-of-the case doctrine established that a
threshold that requires approximately 6,000
votes is invalid

26a
Appendix B
A. [The previous Chancery judge’s] comment
that 6,000 votes was a “bad number” was not
law-of-the-case
B. An interlocutory ruling cannot become final
simply because a judge retires
C. A denial of a motion for interlocutory appeal
is not res judicata
POINT VI Counts I And II were time-barred
POINT VII The trial court erred in requiring
Spencer to reinstate the Seidman Accounts
A. Spencer has the contractual right to close
accounts with or without cause
B. The implied covenant cannot override
express contractual terms
C. Spencer’s motive for closing the Seidman
Accounts is irrelevant and Spencer did not act
in bad faith
D. Seidman cannot bring an action for breach
of contract because he suffered no damages
POINT VIII The trial court erred in awarding
attorneys’ fees to Seidman because he conferred
a benefit on no one but himself

27a
Appendix B
POINT IX The trial court erred in awarding
attorneys’ fees and costs without an evidentiary
hearing when the certification of services
contained numerous deficiencies
POINT X The trial court erred in failing to
dismiss Seidman’s derivative lawsuit for failure
to make demand
POINT XI The trial court should have required
Seidman to post security
In his cross-appeal concerning the closure of the
Wawel accounts, Seidman argues this point:
POINT I: THE REFUSAL TO REQUIRE
THE REINSTATEMENT OF THE WAWEL
ACCOUNTS WAS ERRONEOUS.
In reviewing these arguments in the wake of this
extensive bench trial, we apply well-established general
principles of appellate review. “Findings by a trial court
are binding on appeal when supported by adequate,
substantial, and credible evidence.” Triffin v. Automatic
Data Processing, Inc., 411 N.J. Super. 292, 305, 986 A.2d 8
(App. Div. 2010) (citing Rova Farms Resort, Inc. v. Inv’rs
Ins. Co. of Am., 65 N.J. 474, 484, 323 A.2d 495 (1974)).
“[A]n appellate court should not disturb the ‘factual
findings and legal conclusions of the trial judge unless [it
is] convinced that they are so manifestly unsupported by or
inconsistent with the competent, relevant and reasonably
credible evidence as to offend the interests of justice.’”
Ibid. (quoting Rova Farms, 65 N.J. at 484) (alteration in

28a
Appendix B
original). See also Seidman v. Clifton Sav. Bank, 205 N.J.
150, 169, 14 A.3d 36 (2011) (same).
An appellate court gives particular deference to a trial
judge’s credibility determinations. In re Trust Created
by Agreement, 194 N.J. 276, 284, 944 A.2d 588 (2008).
However, “[a] trial court’s interpretation of the law and
the legal consequences that flow from established facts
are not entitled to any special deference,” and are subject
to de novo review. Manalapan Realty v. Twp. Comm. of
Manalapan, 140 N.J. 366, 378, 658 A.2d 1230 (1995)). We
apply all of the principles of review here.
A.
Before we plunge into the merits, we can readily
dispense with various procedural arguments presented
by both parties.
First, we reject Spencer’s argument that Seidman’s
complaint, the 2017 trial, and the court’s findings
concerning the validity of ten-percent threshold were all
precluded by this court’s prior disposition in Seidman IV.
In that vein, Spencer invokes related principles of (1) entire
controversy, see, e.g., Kent Motor Cars, Inc. v. Reynolds
& Reynolds Co., 207 N.J. 428, 443, 25 A.3d 1027 (2011);
(2) res judicata, see, e.g., Velasquez v. Franz, 123 N.J. 498,
505, 589 A.2d 143 (1991); and (3) collateral estoppel, see,
e.g., In re Dawson, 136 N.J. 1, 20, 641 A.2d 1026 (1994).
Specifically, Spencer contends that in Seidman IV we
conclusively upheld the original ten-percent threshold
that had been restored by the former Chancery judge,
and thereby barred any future challenges by Seidman to
that threshold. Not so.

29a
Appendix B
The validity of the ten-percent threshold was
never actually litigated before the 2017 trial. Spencer
misconstrues the significance of the former Chancery
judge’s decision that was before us in Seidman IV. In
essence, the trial court at that time, having nullified the
amended by-law with a fifteen-percent threshold, simply
reinstated the original ten-percent threshold. The merits
of the ten-percent threshold were never fully explored
with testimony and other evidence until the 2017 trial.
The facts and proofs concerning the ten-percent threshold
concerned a different aspect of the parties’ controversy.
Seidman could not have been reasonably expected
to challenge a hypothetical ten-percent threshold in his
earlier lawsuits where he was challenging the twenty and
fifteen percent threshold. The successive claims were not
amenable to be litigated comprehensively in one case.
Hence, the general policy disfavoring piecemeal litigation,
as expressed in Kent Motors and other cases, did not bar
this new lawsuit based upon a different threshold target.
Likewise, res judicata does not apply because the
present case arises out of new acts and occurrences. Cf.
Watkins, 124 N.J. at 412. Similarly, collateral estoppel
does not apply because the discrete issue of the validity
of the ten-percent threshold was not “actually litigated”
before the present case. Dawson, 136 N.J. at 20.
Next, we are unpersuaded by Spencer’s claim that
this case was barred by the doctrine of laches. There was
no “unexplainable and inexcusable delay” by Seidman in
not challenging sooner the ten-percent threshold until the
present case. Fox v. Millman, 210 N.J. 401, 417, 45 A.3d

30a
Appendix B
332 (2012) (citation omitted). As the trial judge rightly
found, the time to challenge the ten-percent threshold
is appropriately measured from the date that the court
reinstated it in Seidman IV, not from the date of its
original adoption in 1995. Moreover, there is no indication
that Spencer was misled or changed its position due to any
delay in Seidman’s challenge. Nw. Covenant Med. Ctr. v.
Fishman, 167 N.J. 123, 141, 770 A.2d 233 (2001); see Fox,
210 N.J. at 418 (noting that passage of time in-and-of-itself
is insufficient to establish laches).
Nor are we persuaded by Spencer’s assertion that
the trial judge misapplied “law of the case” principles in
finding it unreasonable to expect a depositor to obtain
approximately 6,000 signatures to nominate a slate
of directors. Although the previous Chancery judge
had made a similar observation, the trial judge here
ultimately did not hinge his analysis solely on that facet
of the case. In fact, the judge noted that the “constant
flux” in Spencer’s membership made a fixed percentage
threshold problematic. In any event, the trial judge did
not misapply his discretion in affording deference to the
previous judge’s assessment about the steep number of
required signatures. Akhtar v. JDN Props. at Florham
Park, LLC, 439 N.J. Super. 391, 399-400, 109 A.3d 228
(App. Div. 2015) (noting a judge’s “discretion to decline
relitigation of any legal decision made earlier by an equal
court in the same case”).11
11. We will not grant relief to Spencer on its newly-fashioned
argument that Seidman was required under Rule 4:32-3 to make
a demand upon the Board before filing this derivative action.
That argument was not raised below, and we decline to consider

31a
Appendix B
B.
We now turn to the merits. First, Spencer argues that
the trial judge’s invalidation of the ten-percent threshold
must be overturned because the judge had insufficient
evidence to support that determination. In particular,
Spencer faults Seidman for not presenting empirical proof
showing the threshold was unreasonable. Spencer further
argues the judge improperly considered his findings of
entrenchment and excessive director compensation as
grounds to nullify the by-law. The bank also contends the
court’s nullification of the threshold violates the business
judgment doctrine.
Having fully considered these and other related
criticisms of the judge’s ruling on nullification, we reject
them. Instead, we affirm the nullification of the tenpercent threshold substantially for the cogent and wellsupported reasons expressed in the trial judge’s October
19, 2017 opinion. A few additional comments are in order.
1.
We need not repeat here the many principles of
corporate governance and the operation and regulation
of mutual savings and loan associations that we expressed
at length in our four previous opinions in Seidman I,
Seidman II, Seidman III, and Seidman IV. We are
satisfied the trial judge properly adhered to those
principles in determining that the ten-percent threshold
it. Nieder v. Royal Indem. Ins. Co., 62 N.J. 229, 234, 300 A.2d
142 (1973).

32a
Appendix B
was too onerous and unreasonable. Moreover, the judge
had ample testimony and other evidence to support his
determination.
The trial judge’s articulation of his findings on the
threshold issue demonstrates the falsity of Spencer’s claim
that there was not a “shred of evidence” to support the
court’s invalidation of the ten-percent threshold. There
was, in fact, substantial evidence to support the court’s
action.
Whether the nomination threshold requires, say,
10,000 signatures, 6,000 signatures, or 3,000 signatures
is of little import. Once the number of required signatures
becomes so large as to make it unachievable by petitioning
members at branch offices or organizing a word-of-mouth
campaign among family and friends, the exact number of
needed signatures is irrelevant. As the trial judge noted,
if a mailing approach is pursued, a mailing must be sent
to all members, at a cost that would put a nomination well
beyond the means of the average member.12
Balanced against the disenfranchisement such a
barrier would create are the Board’s proffered reasons for
the threshold, which centered on the Board’s disdain for
12. We are unconvinced by Spencer’s suggestion at oral
argument on appeal that Seidman or some other depositor wishing
to challenge the Board could realistically amass enough signatures
through a Facebook posting or some other social media initiative.
We doubt that many depositors would be drawn in by a website
that concerns their bank’s management and control and take the
time and effort to read and act upon its contents.

33a
Appendix B
Seidman and fear that he might force Spencer to convert
to a stock company. Yet, as the trial judge observed,
conversion of a mutual savings and loan association is not
necessarily a bad thing. Even if it were, numerous hurdles
— some quite burdensome — would have to be overcome
before it could come to pass.
In sum, the trial judge’s conclusion that there are no
legitimate reasons to overcome the proven negative impact
of the ten-percent threshold was supported by adequate,
substantial, and credible evidence.
2.
Furthermore, the “business judgment” doctrine was
by no means trampled by the trial judge’s decision. As
we previously noted in Seidman IV, two of the critical
elements of the doctrine are that the Board members
must act in “good faith” and make a “reasonable” decision.
Seidman IV, 2015 N.J. Super. Unpub. LEXIS 999, at *33
(citing Fink v. Codey (In re PSE&G S’holder Litig.), 173
N.J. 258, 286, 801 A.2d 295 (2002)).
The trial judge’s factual findings that the Board
members in this case acted in bad faith towards Seidman
and were unreasonable in maintaining the ten-percent
threshold are unassailable. Spencer produced no evidence
the directors were independent and disinterested.
Counterproof abounded that they were not. As just one
example, the adoption of By-Law 9 - which essentially
assures Guerrero a seat on the Board in perpetuity —
strongly supports the judge’s conclusion that the directors

34a
Appendix B
are beholden to Guerrero. We are mindful the composition
of the Board changed somewhat over the years, but those
changes of directors did not undermine the trial judge’s
finding of continued and collective loyalty to the CEO.
C.
We next consider Spencer’s contention — which
essentially is joined by the Commissioner as intervenor
— that the trial judge erroneously imposed the onepercent/500-member alternative nomination standard
without the Commissioner’s approval. We concur on
that process-related point. With all due deference to the
judge, his imposition of an alternative threshold modeled
after federal credit union practices was premature. The
Commissioner needs to act first before such a remedy is
implemented.
The applicable law reflects that a mutual savings and
loan association may adopt such by-laws “as it may deem
necessary or desirable for the regulation of its business and
affairs and for the attainment of its purposes, consistent
with the provisions of [the SLA] . . . and may change the
same from time to time.” N.J.S.A. 17:12B-38. In order to
become effective, a by-law must be submitted in writing
to the Commissioner for approval. N.J.S.A. 17:12B-39.
“Approval shall not be withheld by the [C]ommissioner
unless a proposed by-law or any change in the by-laws is
in conflict with the provisions of [the SLA].” Ibid.
By imposing the threshold employed by federal credit
unions without the Commissioner’s approval, the trial

35a
Appendix B
court bypassed this statutory scheme. As we explained
in Seidman III, 2010 N.J. Super. Unpub. LEXIS 1783, at
*30-31, nomination thresholds in-and-of-themselves do
not conflict with the SLA. Seidman IV, 2015 N.J. Super.
Unpub. LEXIS 999, at *29. The main problem with the
ten-percent threshold here is not with the concept of a
threshold itself, but rather with how Spencer’s size had
affected the application of that numerical threshold to the
membership.
Another important consideration is the differences
between a federal credit union and a state mutual
savings and loan association. Hence, the application of
the Commissioner’s expertise in banking and banking
regulation is critical and necessary. Seidman’s expert
Fenner testified concerning the institutions’ similarities,
but did not discuss their differences. Given that such
entities are governed by different statutory schemes,
there may be a reason that the one-percent/500-signature
standard works well for federal credit unions, but might
not be appropriate for state mutuals. We do not intend,
however, to forecast what the Commissioner might do.
In light of the tortuous history of this matter and the
Board’s clear hostility to Seidman, we appreciate why
the trial judge chose “not to leave the Directors to their
own devices.” The judge exercised, in a creative fashion,
his equitable authority as a Chancery judge in adopting
the alternative threshold proposed by Seidman’s expert.
That was the only alternative option presented to him to
replace the invalidated ten-percent.

36a
Appendix B
The Board has already whiffed three times in setting
the nomination threshold. It was not unreasonable for the
trial judge to expect a fourth attempt by the Board would
produce yet another insurmountable barrier. The judge
did not abuse his broad equitable authority in attempting
to devise a new threshold, in light of this unique and
repetitive history and his well-supported findings of the
Board’s entrenching conduct and persisting bad faith. See
Brenner v. Berkowitz, 134 N.J. 488, 514, 634 A.2d 1019
(1993) (recognizing the court’s broad “discretion to fashion
equitable remedies” in appropriate circumstances); see
also Sears v. Camp, 124 N.J. Eq. 403, 411-12, 1 A.2d 425
(E. & A. 1938) (similarly recognizing a “court of equity
has the power of devising its remedy and shaping it so as
to fit the changing circumstances of every case and the
complex relations of all the parties”).
Given the acrimony and contentiousness of this longrunning litigation, it would have been futile to expect the
Board to adopt a by-law with the credit union threshold
advocated by Seidman and his expert. But the court did
not have the authority to order the new threshold without
first obtaining the Commissioner’s blessing.
In fairness to the trial judge, the DOBI was
presumably aware of this ongoing battle for control
between Seidman and Spencer, but did not attempt to
intervene in the litigation at the trial level. It was not until
this appeal when the Commissioner moved to intervene.
That said, the Commissioner as regulator must now be
afforded the opportunity to evaluate the new threshold
before it can become effective.

37a
Appendix B
We do not in this opinion evaluate the merits of the
alternative one-percent/500-member threshold, and
instead await the Commissioner’s assessment of that
provision. We request the Commissioner to render that
decision within ninety days, unless the Commissioner
needs to extend that time further with the mutual consent
of the parties. In the meantime, the stay of the trial court’s
imposition of the new threshold shall remain in place until
the Commissioner acts.
If, hypothetically, the Commissioner upholds the
threshold, then Spencer may file a timely appeal of that
final agency decision. Spencer also may move to reopen
the present appeal, solely as to the one-percent/500member issue, and consolidate those matters. If, on the
other hand, the Commissioner disapproves of the new
threshold, then Seidman may appeal that final agency
decision to this court.
D.
We need not comment much about the issues in the
appeal and cross-appeal pertaining to Spencer’s closure
of the bank accounts of Seidman and his family members
and his associates. The trial judge articulated sound
reasons for undoing Spencer’s closure of the accounts,
and we adopt them here. The judge’s findings of bad faith
and entrenching conduct amply justify the reinstatement
of the accounts.
As a matter of law, the bank’s contractual relationship
with its depositors, including Seidman and his associates,

38a
Appendix B
is subject to an implied covenant of good faith and fair
dealing. Sons of Thunder, Inc. v. Borden, Inc., 148
N.J. 396, 420, 690 A.2d 575 (1997). “The obligation to
perform in good faith exists in every contract, including
those contracts that contain express and unambiguous
provisions permitting either party to terminate the
contract without cause.” Id. at 421. That obligation was
not honored in this case.
The same reasoning applies to the Wawel accounts,
which also must be restored. Seidman’s cross-appeal for
relief on that limited issue must therefore be granted.
E.
Lastly, we discern no reason to disturb the trial court’s
award of counsel fees. In general, we afford substantial
deference on appeal to fee determinations of a trial judge.
Packard-Bamberger & Co. v. Collier, 167 N.J. 427, 444,
771 A.2d 1194 (2001).
The trial judge here manifestly had a substantial “feel
for the case,” and was in an optimal position to evaluate
the reasonableness of Seidman’s fee claim. No evidentiary
hearing was required.
Although the judge’s written discussion of the fee
claim could have been fuller, it explicitly recognized the
fee-shifting factors in RPC 1.5, and it considered detailed
competing submissions of the parties. A remand for a
deeper analysis of the fee dispute is likely to generate
even more litigation expenses for both sides.

39a
Appendix B
Given the distinctive circumstances of this case, we
are unpersuaded that the fee award must be set aside, or
that the amount awarded — in light of the fierce tenor of
this marathon litigation — is manifestly unreasonable.
Nor does much need to be said about Spencer’s
argument that the trial court erred in declining to require
Seidman to post a bond pending appeal. The bonding
requirement in N.J.S.A. 14A:3-6.8 does not apply here
because Spencer is not a New Jersey general business
association. In addition, no court rule mandates the
posting of security in the context of this case.
F.
To the extent we have not already discussed them
explicitly, any other arguments and sub-arguments
presented by the parties lack sufficient merit or relevance
to be discussed in this opinion. R. 2:11-3(e)(1)(E).
Affirmed in part as to the invalidation of the tenpercent threshold, the order to reinstate Seidman’s bank
accounts and those of his relatives and associates, the
award of counsel fees, and the denial of the application to
require Seidman to post a security deposit.
Vacated in part, subject to the Commissioner’s
forthcoming review, as to the adoption of the onepercent/500-member nomination threshold.
We do not retain jurisdiction.

40a
C
APPENDIX CAppendix
— DECISION
OF THE
SUPERIOR COURT OF NEW JERSEY,
DATED DECEMBER 11, 2017
SUPERIOR COURT OF NEW JERSEY
Docket No. PAS-C-53-15
LAWRENCE SEIDMAN,
Plaintiff,
v.
SPENCER SAVINGS BANK, et al.,
Defendant.
DECISION,
DATED DECEMBER 11, 2017
Bruno Mongiardo
JUDGE,
CIVIL DIVISION

PASSAIC COUNTY
COURTHOUSE
71 HAMILTON STREET
PATERSON, NEW JERSEY
07505
(973) 247-3209

OPINION OF THE COURT
This matter comes before the Court on Plaintiff’s
Motion for Fees, both as to the Derivative and NonDerivative Claims. Defendants oppose the Motion and

41a
Appendix C
have filed a Cross Motion for Security Pursuant to NJSA
14A:3-6.8, for an Evidentiary Hearing on the issue of fees
and for a Stay Pending Appeal Pursuant to Rule 2:9-5a.
The Court has considered all submissions of the parties
including Plaintiff’s Reply to Defendants’ Opposition and
Cross Motion and the oral arguments of counsel which
took place on December 8, 2017.
This matter was tried before the Court on May 1, 5, 22
and 24, June 27, July 5, 27 and August 7, 2017. The Court
considered both written summations and oral summations
which were presented on September 22, 2017. The Court
issued its written decision on October 19, 2017.
At the outset, it is to be noted that Defendants
have never filed a Motion for Consideration pursuant to
Rule 4:49-2. Yet, a reading of Defendants’ Opposition is
presented in a general sense as a motion for reconsideration.
The Defendants’ Opposition re-hashes and repeats many
of the same arguments raised at trial which were rejected
by the Court. This Court, even if it treats Defendants’
Opposition as a Motion for Reconsideration, is not inclined
to change or alter its decision.
A reading of the Court’s decision does not in the opinion
of the Court demonstrate plainly incorrect reasoning or
a failure to consider evidence. Cummings v. Bohn, 295
NJ Super 374 (App. Div. 1996). Here, Defendants seek a
second bite at the apple which is inappropriate.
Also, as to the derivative claims, the Court has already
decided this issue. There is no basis to reverse its decision
particularly when the issue was not raised by the defense.

42a
Appendix C
As for the claim for fees on the non-derivative claims,
the Court denies Plaintiff’s application for the reasons
set forth on the record. As for the fees regarding the
derivative claims, Plaintiff’s counsel has submitted very
lengthy and detailed Certifications of Services as well
as a Supplemental Certification of Services. Plaintiff’s
counsel has provided a detailed procedural history of the
case and has responded to all issues and questions raised
by Defendants.
This case involves a lengthy contentious and tortured
history. The trial in question was the third trial between
the parties. It could not be considered in a vacuum but
rather must be considered together with all prior rulings
including prior appellate rulings. Considering all factors
set forth in RPC 1.5, this Court is satisfied that the fee
is reasonable. This Court relies not only upon the initial
Certifications of Services with attachments but also Mr.
Bray’s detailed Reply Certification. The Court accepts
the facts set forth in the Certifications and has no reason
to question the veracity of same. This Court accepts the
narrative responses to Defendants’ challenges as set forth
by Mr. Bray in his Reply Brief, specifically the responses
set forth in pages 7 through 10.
There is no basis to order an evidentiary hearing on
the issue of fees. The Court may consider Certifications,
especially since al recitations contained therein are based
on the personal knowledge of the attorney. See Rule 1:6-6.
The request for an evidentiary hearing is denied.

43a
Appendix C
Next, Defendants argue that under the requirements
of NJSA 14A:3-6.8, Plaintiff can be forced to post security
as a derivative Plaintiff. However, the statute cited solely
governs New Jersey Business Corporations, and Spencer
is not a New Jersey General Business Corporation.
Spencer is a New Jersey Mutual Savings and Loan
Association incorporated under the New Jersey Savings
and Loan Act of 1963, NJSA 17:12B-1 et. seq. There is no
legal basis to require the posting of security.
Finally, given the significant issues raised in the
litigation, it seems only fair to grant a stay pending appeal.
This is so even though this Court does not find Defendants
have a likelihood of success on appeal. The issues are
very important to both sides and are prime for appellate
review. However, if Defendants fail to file an appeal within
20 days of the date of this Order, the Court will rescind
and vacate the stay.
Dated:
December 11, 2017

/s/				
Hon. Bruno Mongiardo, J.S.C.

44a
AppendixOF
D THE SUPERIOR
APPENDIX D — OPINION
COURT OF NEW JERSEY, DATED
OCTOBER 19, 2017
SUPERIOR COURT OF NEW JERSEY
Docket No. PAS-C-53-15
LAWRENCE SEIDMAN,
v.
SPENCER SAVINGS BANK, et al.
OPINION OF THE COURT
This matter comes before the Court on Plaintiffs
Complaint. The Complaint, as amended, articulates
discrete claims against Spencer and its Directors. The
First Count relates to Current By-Law 36 which requires
that ten percent (10%) of the membership support a
Member-initiated nomination of a candidate to the Board.
Plaintiff asserts that this ten percent (10%) threshold
is harming Spencer and its members since it prevents
Members from having a legitimate opportunity to
nominate candidates to oppose the incumbent Directors.
The First Count seeks the invalidation of the threshold.
The Second Count asserts that Spencer, as a mutual, is
very similar to a Credit Union. The By-Laws for Federal
Credit Unions provide that member-initiated nominations
are valid as long as they are supported by the lesser of
1% (one percent) of the membership or 500 members.
The Second Count seeks the replacement of the 10%
threshold with the Federal Credit Union threshold. The

45a
Appendix D
Third Count alleges that Spencer improperly closed the
accounts of Seidman, his entities and his relatives. The
Plaintiff alleges that the proffered reason for the closures
was pretextual. The reinstatement of the accounts and
removal of the Directors is sought as relief. The Fourth
Count asserts that the account closures were wrongful and
breached a contract. Damages and counsel fees are sought.
The defense first argues that the 10% threshold has
previously been held to be proper. Also, Defendants argue
that Plaintiff has introduced no evidence that the 10%
threshold is unattainable. The Defendants further argue
that the Department of Banking and Insurance previously
held that Spencer is entitled to impose a threshold and
that it in fact upheld a 15% threshold. The Defendants
argue that Spencer is required to protect its mutuality,
and it has a right and obligation to protect itself against
Seidman, an alleged notorious corporate raider. Finally,
the Defendants argue that they acted properly and in
accordance with the by-laws regarding the closure of the
accounts.
This case was tried before the Court on May 1,
5, 22 & 24, 2017; June 27, 2017; July 5 & 27, 2017; and
August 7, 2017. The Court then afforded both counsel the
opportunity to provide written summations to the Court.
Both counsel did so. Finally, the Court entertained oral
summations on September 22, 2017.
It is to be noted that this particular cause of action
is the latest in a series of actions involving these parties
over a number of years. The litigation history can best be
described as contentious.

46a
Appendix D
Pre-Complaint Litigation History
In 1995, upon the advice of its regulatory counsel,
Spencer passed an amendment to its By-Laws to
require that a member secure the written endorsement
of at least 10% of all members in order to nominate a
candidate for election to the Board of Directors. This
was the first threshold in the history of Spencer. In
2004, this threshold was increased to 20%. At a first trial
prosecuted by Plaintiff before the Honorable Margaret
Mary McVeigh, PJCh. (now retired), she did strike down
this 20% threshold. This Court has taken note of some of
her specific findings as follows:
1.

The amendment has a deleterious effect on
the efforts of the common, everyday depositor
whether it is 10% or 20%;

2.

The Directors breached their fiduciary duty to
their depositors by attempting to keep “outside
investors” from gaining participation on the
Board in order to maintain their own positions;
and

3.

The Board’s attempt to erect an insurmountable
barrier to those not part of the inner circle is
shortsighted and improper.

Judge McVeigh issued her written decision on April 13,
2007.

47a
Appendix D
The Appellate Division issued a written, unpublished
decision affirming Judge McVeigh’s decision on July 27,
2010. Most notably, the Appellate Division observed the
following:
1.

Any future goal for a conversion or merger
that Seidman may have had was several events
removed from the immediate focus of enhancing
the franchise of Spencer’s members; and

2.

The finding that the By-Law has a deleterious
effect on the nomination efforts of the common,
everyday depositor is based upon substantial
credible evidence.

After the first trial, Spencer set the threshold at 15%.
Seidman challenged this threshold in a second trial. In
fact, Seidman sought the abrogation of any threshold at
all. After a lengthy second trial, Judge McVeigh issued
a written decision on December 19, 2012. She wrote that
she did not find a threshold “per se objectionable” but
found the Board’s process in setting the 15% threshold
to be objectionable. Judge McVeigh acknowledged that
the Appellate Division in its previous Seidman decision
indicated that Seidman needed to present “quantification
of the impact of the By-Law threshold. Specifically, the
Appellate Division indicated there needed to be empirical
evidence”. She recognized that Seidman “failed to
demonstrate quantifiable data” as to why there should
be no By-Law threshold. Judge McVeigh nonetheless
invalidated the 15% threshold and entered judgment
reinstating the 10% threshold Spencer set in 1995.

48a
Appendix D
Certain notable observations of Judge McVeigh are
as follows:
1.

The focus is on the By-Law and not a battle
against the professional investor or the evils of
conversion;

2.

The Board’s focus was never on the size of
membership (40,000); rather, the focus was on
preventing Seidman from having any ability to
address bank governance and banking policies;
and

3.

The amendment has a deleterious effect on the
effort of the common day depositor. The proofs
establish that 15% was the same as 20% when
one considered the actual members of Spencer.
The proofs established that obtaining a seat by
the average member is almost impossible;

The Appellate Division again, by a written unpublished
opinion dated April 30, 2015 affirmed, pertinently finding:
1.

The nexus between the ability to nominate
candidates for the Board and actual conversion
of the mutual is attenuated; and

2.

Any perceived threat by Seidman was neither
imminent nor irresistible.

The Appellate Division soundly rejected Seidman’s
argument that no percentage threshold can be justifiably

49a
Appendix D
imposed. “That is the law of the case and we will not
disavow it here”. This litigation then ensued prior to Judge
McVeigh’s retirement.
Procedural History of This Case
After Seidman filed the instant Complaint, Spencer
filed a motion to dismiss pursuant to Rule 4:6-2(e) for
failure to state a claim on the basis of res judicata, collateral
estoppel, judicial estoppel, the entire controversy doctrine,
the law-of-the-case doctrine, and laches. On September 22,
2015, Seidman filed his First Amended Complaint, which
added a now dismissed count for breach of fiduciary duty,
and he also filed a motion for summary judgment on the
first two counts of the Amended Complaint. On December
9, 2015, Judge McVeigh denied Spencer’s motion to dismiss
and adjourned Seidman’s motion for summary judgment.
In denying the Motion to Dismiss, Judge McVeigh made
critical observations and held:
1.

The nomination procedures have to provide
reasonable availability to the members;

2.

A dislike of Seidman does not give Defendant the
ability to disenfranchise everyone else; and

3.

Accessibility is the issue. Not Seidman.

On December 24, 2015, Spencer filed a motion for
reconsideration of Judge McVeigh’s denial of its motion
to dismiss. On March 4, 2016, Judge McVeigh heard oral
argument on Spencer’s reconsideration motion and on

50a
Appendix D
Seidman’s motion for summary judgment. During oral
argument, but without written opinion, the Court denied
Spencer’s motion to dismiss and Seidman’s motion for
summary judgment.
As to the motion to dismiss, Judge McVeigh made it
quite clear what she believed the critical issues to be. On
December 4, 2015, she stated:
“I think that it has been made very clear that
accessibility is the issue here. Not Larry Seidman. So I
think that we are going to have to address this again. We
are going to have to address whether or not 10 percent is
reasonable.”
At oral argument on March 4, 2016, she stated:
“I think that the fact exists that 6000 as a number of
signatures is unreasonable. I find that as a matter of fact
(emphasis added). I have found that previously”.
She also stated on March 4, 2016
“I found it unreasonable in the past for someone to
try to come up with 6000 signatures on a petition to get
nominated , let alone even win”.
“So, 6000 is a bad number”.
This Court has found these findings by Judge McVeigh
to be the law of the case. See Lanzet v. Greenbera. 126
NJ 168 (1991).

51a
Appendix D
Judge McVeigh also made it quite clear that the impact
of the 10% threshold has not been previously litigated:
“I have never considered, it has never been presented
to me, the impact of the 10% on the ability of the members
of the Savings & Loan to be able to proffer candidates”.
On April 11, 2016, Defendants filed a motion for
leave to file an interlocutory appeal of Judge McVeigh’s
denial of Defendants’ Motion to Dismiss. On May 4,
2016, the Appellate Division denied the motion. Judge
Sabatino agreed with Judge McVeigh that the “validity
of the current 10% signature requirement has not been
previously adjudicated by this Court in its prior opinions
in this matter”.
Plaintiff Seidman also did file a motion to compel the
reinstatement of the accounts in question. During oral
argument on the motion, Judge McVeigh stated:
“Ms. Chaitman, in 24 years on the bench, I have
never been so distressed at a tactic by an attorney in the
pursuit of vengeance as I have with the actions to close
these accounts...
We come into an Equity Court with clean hands. This
was not a good faith, clean hands action. It goes nowhere.”
Judge McVeigh made reference to Ms. Chaitman, trial
counsel for Defendants. The testimony is that she advised
Spenser to close the accounts.

52a
Appendix D
Judge McVeigh was reluctant to compel Defendant
Spencer to reopen the accounts because of her uncertainty
as to whether she had the authority to do so. Judge McVeigh
did seek an advisory opinion from the Commissioner of the
Department of Banking and Insurance (DOBI) whether
a regulation exists which establishes criteria for when
a Depository Savings and Loan Association should, or
must, close a savings account and whether the DOBI has
exclusive jurisdiction over disputes between a depositor
and a Depository Savings and Loan Association concerning
the unilateral closure of savings accounts. On August 3,
2016, a response from the Attorney General’s Office on
behalf of the Commissioner of DOBI was received. That
communication addressed to this Court Qudge McVeigh
retired June 30, 2016) states, “After carefully reviewing
the court’s request, the Department respectfully declines
to comment on this private litigation”.
On June 7, 2016, Judge McVeigh entered an Order
granting Plaintiff leave to file a Second Amended
Complaint asserting claims relating to the closure of the
said savings accounts, holding that Plaintiff continued
to have standing to prosecute the claims in this action.
Also, on June 10, 2016, Judge McVeigh issued an oral
decision dismissing Defendants’ Counterclaim (RICO)
with prejudice.
The 10% Threshold
The Law-of-the-Case is that a By-Law that requires
approximately 6000 members to validate a memberinitiated nomination is unreasonable and invalid. Marzena

53a
Appendix D
Czachor, a Spencer Branch Manager testified that the
typical Spencer member is “blue collar”.
John Sturges, a Board member, testified that one
seeking to achieve the nomination threshold must incur
the cost of mailing to all members. Plaintiff testified that
the cost of the mailing would be approximately $85,000.00.
Anthony Cicatiello, a Board member re-elected in 2017
testified that the requisite mailing cost would be in excess
of $50,000.00. Nicholas Lo Russo, a Board member since
1984 agrees that the cost would be over $50,000.00.
Jane Rey, Spencer’s Chief Operating Officer testified
that Spencer’s roots are in Bergen County with many
members being in the low to moderate income group.
Many are immigrants. Spencer also did acquire another
savings and loan institution in Elizabeth comprised
of many low income members. The evidence clearly
establishes that many members of Spencer are nonEnglish speaking people. In short, the witnesses have
created the impression that the majority of members
are blue collar, perhaps immigrants, who can ill-afford
the cost of a requisite mailing which would be in excess
of $50,000.00 and perhaps as high as $85,000.00. It is
undisputed that since a threshold has been in place since
1995 not one single member has sought to be nominated
to the Board.
Because of the required anonymity of the membership,
an initial mailing to all members is required. The cost of
this mailing places nomination beyond the reach of the
average member.

54a
Appendix D
Given the fact that this case is the third trial
questioning the validity of a fixed percentage threshold,
it is clear to this Court that the use of a static percentage
requirement is unworkable. The membership of Spencer
fluctuates and cannot be determined with any degree of
exactitude.
The evidence in the record reveals that on May 14,
2015, and after the 10% threshold was imposed to replace
the 15% threshold, Ms. Chaitman issued a letter stating
that the current membership of Spencer was estimated
to be 58,659 members (P-4). Michael Irslinger, a Vice
President of Spencer, sent an email to Jane Rey indicating
the potential total number of members to be 58,068. He
indicated that this represents the “best estimate”. (P-6)
When first called to testify, Mr. Irslinger did testify that
this estimate could be inaccurate. He also testified that
Spencer’s software does not permit the establishment
of an accurate determination of the number of voting
members.
Mr. Irslinger later in the trial was called by the
defense to testify as to the size of Spencer’s membership
as of June 16, 2017. The number was not determined by
Mr. Irslinger or an employee of Spencer but rather by
a third party using unknown software and undescribed
techniques. It is not part of the business practice to check
the number of voting members. This Court, therefore, is
satisfied that Spencer’s membership is in constant flux
and cannot be ascertained with any degree of reasonable
certainty so as to make a fixed percentage threshold
workable.

55a
Appendix D
Entrenchment of the Board
This Court has considered the testimony of the
following Board members: Jose Guerrero (Chairman),
Peter Hayes, Barry Minkin, Anthony Cicatiello, Nicholas
Lo Russo, Albert Chamberlain and John Sturgess. A
number of findings can be made from this collective
testimony.
First, Spencer’s Board is a self-perpetuating body
of seven members who share common goals. Virtually
all members have been invited to join the Board by
Jose Guerrero, Director and Chairman. None of them
had to ever deal with a nomination threshold. They, in
turn, consistently reappoint Guerrero and approve his
very lucrative compensation package. Guerrero receives
over two million dollars per annum as his compensation
package while the Directors receive approximately
$70,000.00 plus other valuable fringe benefits.
Second, the motivating factor of establishing and
maintaining this threshold is fear of Plaintiff. Board
Member Hayes testified that when the threshold was
doubled in 2004, the only reason for doing so was the
concern about Plaintiff. Board Member Lo Russo
testified that Plaintiff was considered a threat which then
necessitated the doubling of the threshold. Board Member
Chamberlain stated that a threshold is necessary because
he is fearful of Plaintiff’s motives. These are improper
reasons to maintain this threshold because the case is
not about Seidman but rather it is about accessibility of
the average member to the election process. As noted

56a
Appendix D
above, the ten percent (10%) threshold establishes an
insurmountable barrier to member-initiated nominations.
The requisite mailing costs in all likelihood could not
be met by the so-called “blue collar immigrants” who
arguably are the “average members” of Spencer. While
the Board may dislike Plaintiff (which is understandable
since he comes across as brash, arrogant and pompous)
and feel threatened that he may “rock the boat”, this is no
legitimate reason to disenfranchise the average member.
Third, it is clear that the Board seeks to maintain total
control of the governance of the Bank without challenge.
As Board Member Minkin testified, without a threshold
anyone can show up and seek a nomination. Board Member
Hayes echoed this sentiment when he testified that the
threshold only applies to “outsiders”. Also, the signing
of running proxies (6700) virtually assures the control of
management. This fact is confirmed by the testimony of
Board Member Lo Russo when referencing the running
proxies and confirming that anyone not nominated by
the Directors would need at least 6701 votes “to have a
chance”. That number is, of course, greater than 10% of
the present membership.
Fourth, the argument that the present threshold
ensures stability and prevents chaos in the management
of the Bank is simply not supported by the evidence. It is
clearly established that Spencer never had any problem
when it operated without any threshold prior to 1995.
According to Board Member Lo Russo, there was “no
chaos” in Board elections prior to 1995. While this Court
accepts that the Law-of-the-Case is that a threshold is

57a
Appendix D
proper and valid and should not be totally abolished, the
threshold must be workable.
Fifth, the argument that the threshold preserves
mutuality is not acceptable to the Court. The goal of
preserving mutuality is too attenuated to be relevant.
There is no evidence to conclude that conversion is
necessarily a bad thing except for some self-serving
declarations, without substantiation, of Board members
and Spencer employees. Also, the Board members have
never polled membership and are accordingly unaware of
goals shared by the majority of members including their
views regarding mutuality and conversion.
The ma int enance of a nomination ba r r ier is
entrenching. Spencer’s attorneys so opined when the
Directors were considering the establishment of a new
Nomination By-Law to replace the 20% threshold. See
P-26 at page 4, last paragraph.
From the evidence it is quite clear that the Directors
are all beholden and defer without exception to Jose
Guerrero. His control is so complete that he was able to
secure an amendment to By-Law 9 requiring that the
size of the Board of Directors be expanded and that he be
appointed to a seat in the unlikely event that the members
do not re-elect him. In fact, Board Member Lo Russo who
voted for this amendment to By-Law 9 now claims he has
no recall of whose idea this was to approve this change.
(See P-1) This is not credible.

58a
Appendix D
In short, there are no legitimate reasons to keep the
present threshold which would justify the negative impact
it has on the average member.
Proposed Alternative Threshold
Robert Fennerwas called by Plaintiff and qualified
as an expert in Federal Credit Unions. Credit Unions are
cooperatively owned financial institutions that operate like
banks. The sizes of federally-chartered credit unions vary
with the largest having $80 billion in assets with up to six
million members. Spencer is a $3 billion Savings and Loan
Association. There are 61 Credit Unions of similar size.
It is Mr. Fenner’s opinion that credit unions and mutual
savings and loan associations are comparable.
Mr. Fenner testified that credit unions are member
owned financial institutions. The members are called
shareholders but do not own stock. The Board of Directors
are elected by members. They do have by-laws which have
provisions on how Board candidates are nominated.
Mr. Fennerwas directly involved in the promulgation
of, and consideration of changes to, the Uniform By-Laws
for Federal Credit Unions. These By-Laws are applicable
to all Federal Credit Unions regardless of their size.
Nominations for election to the Boards of Federal Credit
Unions are by petition, and a nominee must secure the
signatures of one percent (1%) of the members, but no
more than 500 members.
The Federal Agency regulating Federal Credit
Unions (the NCUA) considered increasing the number of

59a
Appendix D
petitioners required to validate a nomination and solicited
industry comments. The decision was made to not increase
the numbers because this would make it too difficult for a
member to seek to participate in management by running
for a Board. The 500 Members Cap makes nominations
possible for average members.
Fenner testified that there are 5,275 federally
insured credit unions. Two-thirds are federally chartered
(approximately 3500). These 3500 have the 500 Member
Cap. This Cap has been in effect since at least 2006.
Robert Fenner’s testimony is arguably unrefuted. He
presents a reasonable and workable alternative threshold
which would provide accessibility to the average investor.
The defense called Thomas Cronin as an expert on
proxy solicitation. He opined that the ten percent (10%)
threshold is achievable. His reasoning, however, in the
opinion of the Court is flawed. His opinion is based upon
the fact that if the 15% threshold is achievable as he
previously determined, then the 10% threshold ipso facto
must be achievable. He seems to ignore the actual size of
Spencer’s membership. He also bases his opinion upon
what someone with Plaintiffs evident resources can do
despite the prior rulings that the nomination barrier must
be measured by that which is achievable for the person of
average means.
As noted above and as held by Judge McVeigh, this case
is about accessibility, not Seidman. Yet, Mr. Cronin has
made it about Seidman. He explained that the threshold’s

60a
Appendix D
purpose is to protect against upheaval from a corporate
raider like Seidman. He testified that Seidman’s interest
in a bank like Spencer is to gain a seat on the Board
and effectuate a conversion. He further explained that
Seidman’s tactics involve evading securities regulations
to achieve a hostile takeover. However, he never refutes
or challenges the testimony of Fenner on the issue of
accessibility. He made it all about Seidman.
This Court will give no weight to the opinions
presented by Cronin. He has no experience with the
response rate associated with seeking votes to nominate
a candidate at a mutual. While his analysis was focused
upon what someone like Seidman could achieve, he did
not analyze whether an average member could secure the
requisite level of support. Finally, while Cronin conceded
that the size of membership matters, he admitted on
cross-examination that he did not consider Spencer’s
membership size in his analysis.
Additionally, this Court finds Cronin to be biased
against Plaintiff. He did admit that he told the Board about
Plaintiff’s tactics in taking over banking institutions. He
opined that the downside of lowering the threshold is
that it makes it easy for people to vote and “get anybody
nominated”. He believes conversion is bad for Spencer’s
members.
On the other hand, the Federal Credit Union
nomination standard has proven to be workable of all
sizes of institutions. This is a fact that is not disputed.
Importantly, this standard permits that a nomination

61a
Appendix D
be achieved by securing petitions at branches which
eliminates the enormous expense associated with a
mailing.
As the Appellate Division made clear in its Opinion
of April 30, 2015 affirming Judge McVeigh’s striking of
the 15% threshold, and reinstating the 10% threshold, a
court cannot simply pick a remedy “out of thin air” and
impose its personal choice upon the parties. Instead, the
court’s decision must have a “sound basis”. In this instance,
this Court has compared the testimony of Fenner and
Cronin. It has carefully considered the appropriateness
and workability of the present threshold. It has considered
the fairness or reasonableness of the 10% threshold. This
Court is also well aware about the concerns of management
entrenchment and oppression which are pitted against the
need for stability in mutual associations and the risks of
potential upheaval that may be caused by raiders seeking
a conversion of a mutual association to a stock corporation.
Here, there is clear evidence of entrenchment which leads
to disenfranchisement. There is no evidence of chaos
or instability that would result from a lowering of the
threshold. There is also no evidence that lowering of the
threshold would lead to a Seidman takeover.
For all these reasons, the Court will vacate the 10%
threshold and replace it with the Federal Credit Union
Threshold. This Court chooses not to leave the Directors
to their own devices.
The members’ right to vote is the ideological
underpinning for the democratic process; and, the right to
nominate is of equal importance since “the right to vote is

62a
Appendix D
meaningless without the right to participate in selecting
the candidates”. Durkin v. National Bank of Olyphant,
772 F 2d. 55, 59 (3d Cir. 1985). All nominees for election
to a mutual savings and loan Board of Directors must be
treated equally. Application of Veloso, 93 NJ Super 186,
194 (App. Div. 1966), cert. den. 48 NJ 580 (1967).
The Account Closures
Defendant Spencer closed accounts maintained by
Seidman, his entities and his relatives on or about April
20, 2016. All of the accounts were savings accounts or
certificates of deposit (P-13). Plaintiff Seidman had his
accounts since 1988; his wife Sonia had her accounts
since 2002; his adult daughter Erica Fishman had her
account since 2005; his son-in-law Michael Hammer had
his account since 2005; and his corporation, Veteri Place,
had its accounts since 2004.
The stated reason for the closures was the existence
of the Civil RICO Counterclaim filed by Spencer. (That
Counterclaim has been dismissed with prejudice by
Judge McVeigh). It was counsel, Ms. Chaitman, who
recommended the closures stating in letters dated April
20, 2016:
“Given the allegations of the claim, the Bank has no
alternative but to close the accounts in your name and
in the name of your family members”. (P-12)
Spencer claims that it has the authority as per its
by-laws to permit the closure of accounts without cause.
However, Jane Rey testified that this authority did not

63a
Appendix D
come about until 2012, after the second trial. Notice was
only given to new members.
In order to modify a contract, the proposed modification
must be communicated to, and accepted by, the other
party. County of Morris v. Fauver, 153 NJ 80. The party
who does not propose the change must have knowledge
of it and assent to it. Bonnco Petrol, Inc., v. Epstein, 115
NJ 599 (1989).
As will be shown below, the proffered reason for the
closures was pretextual. The real reason was to eliminate
Seidman’s membership, disenfranchise him and deprive
him of standing. Judge McVeigh has already found this
to be a bad faith act.
Ms. Rey and Mr. Guerrero made the decision to close
the accounts based upon the recommendation of counsel
Chaitman. She admitted that the purpose of the account
closures was to stop this litigation. Guerrero admitted
that the goal of the closure was to terminate Seidman’s
membership. The accounts of Seidman’s relatives were
closed solely because they were his relatives. With respect
to the account closures, Lo Russo testified that “enough
was enough”. One of the goals was to stop the litigation.
Chamberlain testified that Ms. Rey informed the Directors
that the accounts were closed because of the time and
money spent on the litigation. The goal, he stated, was to
remove Seidman so he cannot nominate anyone. Sturges
testified that the goal of closures was a termination
of disreputable conduct. He further indicated that the
attendance of litigation counsel at a Board Meeting, in

64a
Appendix D
this instance Ms. Chaitman, was unprecedented. Cicatiello
testified that the closure was done to eliminate Seidman
as a voting member.
This Count finds none of the reasons given by Ms.
Rey to support the closure of the accounts to be credible.
Also, the RICO Counterclaim was not prepared until
April 2016 which was approximately ten months after the
commencement of this case.
The inescapable conclusion is that the accounts were
closed in bad faith. This Court also finds Seidman has
standing to challenge all the closures because all of the
subject accounts were closed because of a connection to
him.
It also must be noted that there was no proof presented
by the defense to suggest that Seidman did anything
wrong or illegal. The defense called fourteen witnesses
in an attempt to discredit Seidman. None of the witnesses
had any agreement with Seidman to do anything with
respect to Spencer. Several of the witnesses did not even
know Seidman or only came to know him long after they
had opened accounts at Spencer. Many of the witnesses
had voluntarily closed their accounts in the ordinary
course of events undermining and destroying any theory
that they were engaged in some clandestine conspiracy
with Seidman.
This Court will Order the reinstatement of all subject
accounts that were improperly closed.

65a
Appendix D
Interest at the rates paid to depositors during the
period from April 2016 should be paid on each account.
The Court’s Authority
The defense objects to the Court’s authority to fashion
the above remedies. The Court disagrees. The Appellate
Division decision of April 30, 2015 is very instructive in
this regard. The Appellate Division stated:
“[W]e reject Defendants’ entreaties that we uphold
the 15% threshold because the trial court and the
Commissioner had previously approved it in 2010 before
the instant ten-day trial in 2011-12. As we made clear
in our prior decisions, the Commissioner’s regulatory
approval under the Savings and Loan Act does not
mandate approval of a by-law under legal and equitable
principles of corporate governance, (omit citation) In
fact, the Commissioner, at various times, successfully
approved the 10% threshold in Spencer’s By-Law 31, then
the 20% provision, then the 15% provision. This pattern
signifies that the Commissioner and the Department
have been relatively flexible about the actual nomination
percentage adopted by the bank, leaving it to the judiciary
to evaluate the propriety of the percentage under more
general principles of governance”. Appellate Division, A
3836-12T2, p. 30 (April 30, 2015).
Furthermore, the Appellate Division in its earlier
decision of July 27, 2010, addressed the respective
roles of the executive and judicial branches regarding
the corporate governance of mutual savings and loan
associations in Newjersey. The Court stated:

66a
Appendix D
“[t]he Chancery Division’s open-door jurisdiction
for resolution of disputes arising from claims of
breach of fiduciary duties - even for actions found
by the Commissioner to be not inconsistent with the
SLA - remains fully intact. The stewardship role of
the judiciary over such traditional courses of action,
including resolving the effect of a given instance of
corporate governance (such as the challenged amendment
to By-Law 31) is not undermined by an indulgent review
and expansive commentary by the DOBI...” Appellate
Division, A0167-07T2; A1036-07T2; A1343-07T2; p. 11
(July 27, 2010).
The instant case alleges breach of fiduciary duties on
the part of the Board.
In fashioning relief, a Chancery judge has broad
discretionary power to adapt equitable remedies to the
particular circumstances of a given case. Marioni v.
Roxv Garments Delivery Co., Inc., 417 NJ Super 269
(App. Div. 2010). The Chancery Division has the inherent
power to impose equitable remedies to redress directorial
abuses. Roach v. Margalies, 42 NJ Super 243 (App. Div.
1956). The Chancery Court will act even though directors
have the power to act when there is self-dealing or other
unconscionable conduct. Penn-Texas Corn. v. NilesBemest-Pond Company, 34 NJ Super 373 (Ch. Div. 1955).
Legal Fees
Legal fees are awarded in a derivative action. Sarner
v. Sarner, 38 NJ 463 (1962). They are awarded if a benefit
is conferred upon the corporation or its shareholders/

67a
Appendix D
members. Trimarco v. Trimarco, 396 NJ Super 207
(App. Div. 2007); Rule 4:42-9(a)(2). In this instance, the
prosecution of the claims asserted with respect to the
10% threshold unquestionably benefits Spencer and its
members. These claims are derivative. However, the
Court does not reach the same conclusion as to the claims
concerning the closure of the accounts. Those claims are
not derivative.
Any application for fees must be restricted to the
derivative claims.
Removal of Directors
This is the third trial involving these parties. There
have been several appellate reviews. Thus far, there has
been no basis to remove the Directors. This Court will
not now take such a severe, draconian step.
Accordingly, Plaintiff shall submit an Order consistent
with the Court’s decision.
Dated: October 19, 2017
/s/				
				HON. BRUNO
				MONGIARDO, J.S.C.

